<html>
<title> - AGRICULTURAL RESEARCH: PERSPECTIVES ON PAST AND FUTURE SUCCESSES FOR THE 2018 FARM BILL</title>
<body><pre>[Senate Hearing 115-172]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-172

                         AGRICULTURAL RESEARCH:
                          PERSPECTIVES ON PAST
                          AND FUTURE SUCCESSES
                         FOR THE 2018 FARM BILL

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                             JUNE 15, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           


       Available via the World Wide Web: http://www.govinfo.gov/
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-501 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-

mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98ffe8f7d8fbedebecf0fdf4e8b6fbf7f5b6">[email&#160;protected]</a>                     


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

             James A. Glueck, Jr., Majority Staff Director

                    Jessica L. Williams, Chief Clerk

               Joseph A. Shultz, Minority Staff Director

               Mary Beth Schultz, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Agricultural Research: Perspectives on Past and Future Successes 
  for the 2018 Farm Bill.........................................     1

                              ----------                              

                        Thursday, June 15, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                                Panel I

Bartuska, Ann, Ph.D., Acting Deputy Under Secretary, Research, 
  Education & Economics, United States Department of Agriculture, 
  Washington, DC.................................................     5
Ramaswamy, Sonny, Ph.D., Director, National Institute of Food and 
  Agriculture, United States Department of Agriculture, 
  Washington, DC.................................................     7
Jacobs-Young, Chavonda, Ph.D., Administrator, Agricultural 
  Research Service, United States Department of Agriculture, 
  Washington, DC.................................................     8
Rockey, Sally, Ph.D., Executive Director, Foundation for Food and 
  Agriculture Research, Washington, DC...........................    10

                                Panel II

Floros, John, Ph.D., Dean and Director, College of Agriculture 
  and K-State Research and Extension, Kansas State University, 
  Manhattan, KS..................................................    33
McMurray, Gary, Division Chief, Food Processing Technology 
  Division, Georgia Tech Research Institute, Atlanta, GA.........    35
Hartman, Kerry, Ph.D., Academic Dean and Sciences Chair, 
  Environmental Sciences, Nueta Hidatsa Sahnish College, New 
  Town, ND.......................................................    36
Wellman, Steve, Farmer, Wellman Farms Inc., Syracuse, NE.........    38
                             
                             
                             ----------                              

                                APPENDIX

Prepared Statements:
    Cochran, Hon. Thad...........................................    48
    Bartuska, Ann................................................    49
    Floros, John.................................................    61
    Hartman, Kerry...............................................    68
    Jacobs-Young, Chavonda.......................................    75
    McMurray, Gary...............................................    81
    Ramaswamy, Sonny.............................................    84
    Rockey, Sally................................................    94
    Wellman, Steve...............................................   105
Document(s) Submitted for the Record:
Stabenow, Hon. Debbie:
    Center of Innovative and Sustainable Small Farms, Ranches and 
      Forest Lands (CISFRL), prepared statement..................   110
Rockey, Sally:
    Addendum to Prepared Statement...............................   118
Question(s) and Answer(s):
Bartuska, Ann:
    Written response to questions from Hon. Pat Roberts..........   120
    Written response to questions from Hon. Debbie Stabenow......   129
    Written response to questions from Hon. Kirsten Gillibrand...   155
Floros, John:
    Written response to questions from Hon. Debbie Stabenow......   159
    Written response to questions from Hon. Kirsten Gillibrand...   162
Hartman, Kerry:
    Written response to questions from Hon. Debbie Stabenow......   164
    Written response to questions from Hon. Amy Klobuchar........   165
    Written response to questions from Hon. Kirsten Gillibrand...   167
Jacobs-Young, Chavonda:
    Written response to questions from Hon. Pat Roberts..........   168
    Written response to questions from Hon. Debbie Stabenow......   169
    Written response to questions from Hon. Sherrod Brown........   183
    Written response to questions from Hon. Amy Klobuchar........   184
McMurray, Gary:
    Written response to questions from Hon. Debbie Stabenow......   186
    Written response to questions from Hon. Kirsten Gillibrand...   189
Ramaswamy, Sonny:
    Written response to questions from Hon. Pat Roberts..........   192
    Written response to questions from Hon. Debbie Stabenow......   193
    Written response to questions from Hon. Sherrod Brown........   203
    Written response to questions from Hon. Amy Klobuchar........   206
    Written response to questions from Hon. Kirsten Gillibrand...   208
Rockey, Sally:
    Written response to questions from Hon. Pat Roberts..........   211
    Written response to questions from Hon. Debbie Stabenow......   215
    Written response to questions from Hon. Kirsten Gillibrand...   217
Wellman, Steve:
    Written response to questions from Hon. Debbie Stabenow......   220
    Written response to questions from Hon. Sherrod Brown........   222


 
                         AGRICULTURAL RESEARCH:
                          PERSPECTIVES ON PAST
                          AND FUTURE SUCCESSES
                         FOR THE 2018 FARM BILL

                        Thursday, June 15, 2017

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 9:33 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the committee, presiding.
    Present or submitting a statement: Senators Roberts, 
Boozman, Hoeven, Ernst, Grassley, Thune, Daines, Perdue, 
Stabenow, Brown, Klobuchar, Bennet, Gillibrand, Donnelly, 
Casey, and Van Hollen.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
  KANSAS, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order.
    Someone once said, ``Today American agriculture is in the 
grip of a technological revolution, as vast and as rapid as any 
in history. It is a revolution which has made the American 
farmer the most efficient in history. It has made his 
productivity the marvel and envy of every nation. Experts from 
all over the world come to see our farms, study our techniques, 
and learn our methods, and the farm technology we have 
developed here in the United States holds out hope to the 
world, for the first time, that no man, woman, or child on 
Earth needs to go hungry again.''
    These words are as accurate today as they were in the past, 
when said by then President John F. Kennedy.
    My colleagues, and those in the audience, times are pretty 
tough right now in farm country, and research is indeed the 
backbone that drives agriculture change, efficiencies, and 
productivity, and the U.S. must continue leading the charge to 
feed a growing population of an estimated 9.7 billion in the 
next several decades.
    Discretionary spending on the research, education, and 
economics mission area at the Department has remained fairly 
flat for the past six years, and yet budgets are getting even 
tighter here in Washington. However, we must continue to focus 
on agriculture research, and in February of this year we kicked 
off the farm bill process by holding a field hearing in 
Manhattan, Kansas, at Kansas State University, and 600 were in 
attendance.
    At that hearing, we heard from a variety of agriculture 
stakeholders, 21, about what they want to see in the next farm 
bill reauthorization, but that day just did not include the 
hearing. My day started at the Kansas Wheat Innovation Center, 
where I toured the research labs and a greenhouse, and spoke 
with some of the center scientists, and observed cutting-edge 
research that will help keep our wheat growers as the most 
efficient and productive in the world. The Kansas Wheat 
Innovation Center is just one example of why the United States 
produces the safest, most affordable and abundant food and 
fiber supply in the world.
    In 2012, we celebrated the 150th anniversary of the United 
States Department of Agriculture. That same year, we celebrated 
the 150th anniversary of the Morrill Act, which established the 
land-grant college system. I might add that Kansas State 
University was the first land-grant institution created under 
that act. I well know----
    [Laughter.]
    Chairman Roberts. --the history with regards to Michigan 
State, and I will yield.
    Senator Stabenow. Official.
    Chairman Roberts. --the first official. I think you had a 
building and somebody just said that was official, and that we 
had the first land grant. Anyway, let us let that go.
    Because of the early investment U.S. leaders made in 
agriculture research and extension efforts, our producers are 
better equipped to manage through drought, disease, floods, 
fires, and a great deal more that Mother Nature throws at them. 
Today there are additional challenges. Farmers are combating 
new pests and diseases and unpredictable weather patterns. 
Livestock producers rely on best management practices supported 
by accurate data and data to continually improve their 
production efficiencies. At the same time, scientists must work 
to ensure consumers have accurate science-based information 
regarding the nutritional benefits in foods that consumers are 
demanding.
    My colleagues, we have our work really cut out for us with 
this farm bill reauthorization. We need to find ways to do more 
with less, to reduce burdens of overregulation, ask tough 
questions as we re-examine programs to determine their 
effectiveness, and if they are serving their intended purpose. 
Strong public-private partnerships have been the cornerstone of 
U.S. agriculture research.
    Senator Stabenow and I were the original cosponsors of the 
bill that became the foundation for food and agriculture 
research in the 2000 Farm Bill. The foundation represents an 
opportunity to partner with the private sector and generate new 
funding streams in the light of budgetary constraints. In order 
to carry out bold and innovative agriculture research, this 
innovation should build upon and complement existing research 
at the Department of Agriculture.
    I look forward to hearing more this morning about how the 
foundation has used the seed funding Congress provided to 
leverage additional resources that produces results. I also 
look forward to hearing from leaders at the Department, our 
universities, and producers about research priorities for the 
next farm bill.
    So today's hearing is an opportunity to take stock in where 
we have come from and discuss where we are going in agriculture 
research. Through the leadership of the Department of 
Agriculture and setting priorities, the federal funding at our 
universities, and the investment of the public sector, I am 
optimistic about our future and overcoming the challenges that 
lie ahead.
    I look forward to hearing from our witnesses and thank them 
for coming and participating. I know you all have valuable 
time.
    With that I am very pleased to recognize Senator Stabenow 
for any remarks she might want to make.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman. 
I first want to express what all of us are feeling about the 
shooting yesterday and Representative Steve Scalise, the staff, 
the Capitol Police, and that we all are saddened and horrified 
by what happened.
    I particularly want to lift up, though, a young man from 
Michigan, Matt Mika, who is very close to our staff. His mom 
and dad have flown in from Michigan and are now at the 
hospital. He has had one surgery, has to have another, and he 
is really in very serious condition, so we lift him up. He 
worked for two members of our congressional delegation in the 
House and is now with Tyson Foods, but we consider him part of 
the extended agriculture family and ask for specific prayers 
for Matt as he is going through tough times as well.
    I also want to thank our expert witnesses for being here 
today to discuss the importance of agricultural research, 
education, and extension. I have always said that we do not 
have an economy unless somebody makes something and somebody 
grows something, and that is exactly what agriculture research 
helps us do. Research initiatives included in the 2014 Farm 
Bill provide the tools and the science that sustain Michigan 
agriculture, and all of agriculture.
    I do want to indicate Michigan agriculture is our state's 
second-largest industry, supporting one out of four jobs. In 
fact every $1 invested in agricultural research creates more 
than $20 in return to the U.S. economy, which is a great 
investment. Michigan is home to the country's pioneer land-
grant, my alma mater, Michigan State University. We will 
probably have to claim joint ownership at some point, depending 
on the timing here.
    The innovative work happening every day at land-grant 
universities, like Michigan State and Kansas State and other 
agricultural research institutions protects and improves our 
food system. Land-grant universities are unique in that they 
implement their research findings in communities through 
extension work. When I was getting my graduate degree I 
appreciated being a part of extension and seeing it close up.
    The Morrill Act of 1862 created the land-grant university 
system with the mission to serve rural communities. Since that 
time, the United States has led the world in agricultural 
research. However, over the last decade we have seen China, 
India and Brazil significantly increase their investment in 
agricultural research. China now has a 2-to-1 advantage over 
the U.S. in critical public investments to address emerging 
pests, disease, and extreme weather in the agriculture sector. 
If we allow our country to slip behind in agricultural 
research, our farmers could lose their global competitiveness.
    Now, more than ever, it is critical to invest in public 
research and support our world-class agricultural research 
institutions that make our farms more productive and 
sustainable. From innovative robotic technology to precision 
agriculture, our scientists are pushing the bounds of what is 
possible to create new opportunities.
    In Michigan, we are famous for our wide variety of 
specialty crops, from our cherry trees and apple orchards to 
our hops yards and wineries, but many of those crops would not 
be thriving if it were not for targeted investments like the 
farm bill Specialty Crop Research Initiative. For example, 
Michigan has been the number one domestic producer of 
blueberries over the last 70 years, contributing more than $118 
million to Michigan's annual economy.
    While it might be easy to find these nutritious berries in 
your grocery store--and they are really good--their widespread 
popularity is thanks, in part, to agricultural research. Crops 
like blueberries have depended on innovative research to meet 
the changing needs of consumers and growers alike. Michigan 
State has developed some of the most widely planted varieties, 
with traits that work best for commercial production.
    But it is not just specialty crops that have benefitted. We 
are also growing jobs through research that strengthens the 
emerging bio-based economy. The 2014 Farm Bill supports the 
farms that produce our energy crops and provides innovative 
technologies for renewable energy projects across the country. 
Research breakthroughs have made it possible for bio-based 
products to enter the market, which contributes $393 billion to 
the U.S. economy and supports 4.2 million jobs, plus.
    There are many other ways, Mr. Chairman, I see that my time 
is running out. I am going to place some other comments as to 
other examples in the record. But let me just say, every day 
our farmers face new and emerging challenges posed by disease 
and invasive pests as well. In Michigan, invasive species are 
destroying our cherry harvests, and in Florida citrus greening 
is devastating orange groves. In Kansas, stripe rust has struck 
wheat farmers.
    Our agricultural researchers are stepping up to the plate, 
over and over again, to address these challenges. That is why, 
in the last farm bill, Chairman Roberts and I worked together 
to create the Foundation for Food and Agricultural Research. I 
am thrilled to see some representatives from the foundation 
here today to update us. We owe so many of our accomplishments 
in agriculture to the scientists who conduct groundbreaking 
research. Every day they pave the way forward for farmers and 
food businesses.
    So I am very pleased that you are all here today. I also 
want to indicate that we are, unfortunately, having national 
debates over scientific facts, and I am not afraid to say that 
I believe in science. I know that in this Committee, when we 
are talking about research, we are talking about science. 
Science-based agricultural research is good for our farmers, 
good for our consumers, good for our economy, and I look 
forward, in the next farm bill, to strengthening our efforts, 
working together, based on our past bipartisan victories.
    Thank you, Mr. Chairman.
    Chairman Roberts. I thank the distinguished Ranking Member. 
My colleagues, as you all know, we have three votes at 11:00. 
We are going to rotate back and forth during those votes to 
keep the hearing going. I only mention this to inform our 
panelists that we will keep going. If you can keep within the 
five-minute allotment that we have given you, despite the fact 
that both myself and the Ranking Member went over about 45 
seconds, that would be fine.
    I would say that, like King Tut, we are pressed for time, 
but that is a horrible pun that I will not bring up. Please, no 
groaning.
    [Laughter.]
    Welcome to our first panel of witnesses before the 
Committee this morning. Dr. Ann Bartuska serves as the Acting 
Deputy Under Secretary for Research, Education, and Economics 
within the Department of Agriculture. Prior to her work at the 
Department she served in a variety of roles at the Forest 
Service, including the Deputy Chief of Research and Development 
from 2004 to 2010. Welcome. I look forward to your testimony.
    Dr. Sonny Ramaswamy has served as the Director of the 
National Institute of Food and Agriculture since May of 2012. 
He has also held a number of leadership positions at 
universities across the country, including Kansas State 
University, where he was a distinguished professor and head of 
the Entomology Department. Welcome, sir, and thank you for 
participating.
    Dr. Chavonda Jacobs-Young has served as Administrator of 
the Agricultural Research Service, the Department of 
Agriculture's chief science in-house research agency, since 
February of 2014. Previously she worked in a variety of 
leadership roles at the Department, at the Agriculture Research 
Service, the Office of Chief Scientist, and the National 
Institute of Food and Agriculture. Welcome, and thank you for 
today's joining--to joining today's panel.
    Dr. Sally Rockey serves as the first Executive Director for 
the Foundation for Food and Agriculture Research. Prior to this 
role, she led the Competitive Grants Program at the Cooperative 
State Research Education and Extension Service, what is now 
known as NIFA. Dr. Rockey also served as the Deputy Director 
for Extramural Research at the National Institutes of Health. 
Welcome, Dr. Rockey, and I look forward to your testimony.
    We will begin now with Dr. Ann Bartuska. Doctor?

     STATEMENT OF ANN BARTUSKA, PH.D., ACTING DEPUTY UNDER 
 SECRETARY, RESEARCH, EDUCATION, AND ECONOMICS, UNITED STATES 
           DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Ms. Bartuska. Chairman Roberts, Ranking Member Stabenow, 
and distinguished members of the Senate Agriculture, Nutrition, 
and Forestry Committee, I am very pleased to be able to be here 
with you to provide an overview of the activities of the 
research branch of USDA, and particularly research education 
and economics, my mission area.
    But before I begin my statement I would like to offer my 
sympathy from the entire USDA family to the victims of 
yesterday's shooting and share your thoughts, Senator Stabenow.
    I am, as introduced, Dr. Ann Bartuska, Acting Under 
Secretary and Acting Chief Scientist of the USDA. I, however, 
was serving as Deputy Under Secretary since 2010, and have 
really been privileged to be part of the REE mission area. REE 
has four agencies: the Agricultural Research Service, the 
Economic Research Service, National Agricultural Statistics 
Service, and the National Institute of Food and Agriculture. 
Two of the administrators are here today, as have already been 
introduced, Dr. Sonny Ramaswamy, the Director of NIFA, and Dr. 
Chavonda Jacobs-Young, who is the Administrator of Agricultural 
Research Service.
    The United States and the world are facing critical 
problems and opportunities. Global population is expected to 
reach 9.7 billion people by 2050, almost two and a half billion 
more people than today. At the same time, we are struggling 
with extreme weather events and conditions that really impact 
so many agricultural production systems. Investments in 
research are a critical factor in meeting these and other 
challenges and opportunities, and it is the REE mission area 
agencies that support the critical research and analyses that 
our country needs to ensure farm profitability and strengthen 
our communities, improve nutrition and food safety for lifelong 
health, and safeguard sustainable use of natural resources, 
including an abundant and safe water supply.
    REE's work in food and agricultural sciences is based on 
the premise that the Federal Government has a role in advancing 
scientific knowledge to promote our nation's social and 
economic well-being. REE does this by investing in areas in 
which for-profit industry does not invest, such as basic 
research. It also collaborates with public sector academic and 
the private sector to amplify research outcomes.
    We know that the return on investment in agricultural 
research is $20 for every dollar spent. An under-investment or 
absence of investments in food and agricultural sciences 
diminishes the needed foundational knowledge base that fuels 
innovation--many of the things that Senator Stabenow mentioned 
in terms of precision agriculture and advances in technology 
are part of that innovation--and impacts our nation's global 
preeminence and economic wellbeing. It is with these goals in 
mind that the REE mission area agencies establish their 
priorities and conduct their work.
    Expected gains in agricultural yield and production are 
unlikely to sustainably provide food, fiber, and fuel to meet 
the needs of 2050, without additional resources for research. 
As it has been pointed out, the U.S. is losing its global 
scientific dominance and research leadership to emerging 
countries in addressing agricultural productivity and 
profitability challenges. China has surpassed the U.S. and it 
continues to increase its investment in agricultural research.
    Mr. Chairman, despite significant efforts by recent farm 
bill and annual spending bills to enhance agricultural science 
in the United States, we are at a crossroads. Although REE has 
made significant strides in our physical infrastructure, our 
human infrastructure, and big science capabilities, we are 
falling further and further behind. There is much to be 
accomplished. Our storied legacy of discovery, innovation, and 
international leadership in agricultural research, education, 
and economics is in jeopardy by insufficient investments in 
both money and in minds.
    This is a challenge that we must all rise to meet and REE 
looks forward to rising to that challenge.
    Thank you for giving me some time today.
    [The prepared statement of Ms. Bartuska can be found on 
page 49 in the appendix.]
    Chairman Roberts. Thank you so much for your testimony and 
for keeping within the time limit.
    Next we have Dr. Ramaswamy.

    STATEMENT OF SONNY RAMASWAMY, PH.D., DIRECTOR, NATIONAL 
INSTITUTE OF FOOD AND AGRICULTURE, UNITED STATES DEPARTMENT OF 
                  AGRICULTURE, WASHINGTON, DC

    Mr. Ramaswamy. Good morning, Chairman Roberts, and Ranking 
Member Stabenow, and Committee members. Thank you so much for 
having us here this morning for me to share with you a little 
bit of information about the National Institute of Food and 
Agriculture, and we have submitted the written testimony that 
has got a lot more detail in it as well.
    We have, in America, our food systems, collectively, 
according to the Economic Research Service, is pretty close to 
a trillion-dollar enterprise, and it supports 21 million jobs. 
The role of the National Institute of Food and Agriculture is 
to provide the research and extension underpinnings, and the 
educational underpinnings, of that enterprise itself.
    I would like to say that what NIFA supports, across 
America, the science that we support is inspired by the end 
users, and once the work is done it is translated into 
innovations and solutions and delivered to the end users, and 
it transforms people's lives.
    I want to share with you two examples of that.
    The first example is Dr. Barbara Valent from Kansas State 
University, last year went to Kentucky, and discovered wheat 
blast disease on spring wheat seedlings. This is a particularly 
vexing disease that can potentially destroy almost 100 percent 
of the wheat, and the work that she did with funding from NIFA 
and her colleagues at University of Kentucky and the 
Agricultural Research Service has resulted in our ability to 
very rapidly determine what species of wheat blast we have, so 
that we can deploy the appropriate approaches to deal with it.
    A second example, from Michigan, is the work that is done 
by our extension colleagues there at Michigan State University, 
and just yesterday we heard that the Attorney General of 
Michigan has filed charges against people involved in the Flint 
water situation--lead in the water situation. Our extension 
colleagues at Michigan State University were on the ground as 
soon as they discovered lead in the water, and started 
deploying information to those folks out there, and providing--
in addition to providing just water, bottled water, they also 
provided information on improving the nutrition of the children 
so that if you can improve the nutrition of those children they 
will not have to suffer the long-term effects of lead itself.
    So those are a couple of examples of the transformative 
work that NIFA supports. Our mission is to catalyze 
transformative research, education, and extension to solve 
societal challenges, and at the end of the day, the support 
that we provide is really about our producers, our farmers and 
livestock producers in America. We want to make sure that they 
are able to remain profitable. That, at the end of the day, as 
you said, Mr. Chairman, farm incomes are depressed, have been 
depressed here in the last few years now, and we have got to do 
everything we can to give them a leg up.
    So our budget is about $1.5 billion. It is split up into 
two big buckets. One supports the experiment stations extension 
and education, and the other funding is provided for 
competitive grants. These funds, as you noted, and Senator 
Stabenow noted, provides tremendous return to our nation, 20-
to-1 return on the investments that we make.
    Unfortunately, however, we are falling further and further 
behind, as has been noted by you and my colleague here, Dr. 
Bartuska, as well. We are falling further and further behind, 
so we have got to do everything we can to ensure that this 
innovation engine that we have got is going to be supported and 
protected.
    We undertake stakeholder conversations throughout the year, 
and currently we are undertaking conversations about protecting 
the biosecurity for our food systems, about nutrition 
education, about youth education and 4-H, and about our 1994 
tribal-serving institutions as well, and we hope to 
aspirationally incorporate those, as we go forward, to work 
with you and your colleagues in the farm bill itself, as we go 
forward as well.
    With that, I want to go ahead and thank you very much for 
giving me the opportunity to share some thoughts with you about 
the National Institute of Food and Agriculture. Thank you 
again.
    [The prepared statement of Mr. Ramaswamy can be found on 
page 84 in the appendix.]
    Chairman Roberts. Doctor, thank you very much for your very 
fine extemporaneous report, and we appreciate your observing 
the time limit.
    Dr. Jacobs-Young.

   STATEMENT OF CHAVONDA JACOBS-YOUNG, PH.D, ADMINISTRATOR, 
  AGRICULTURAL RESEARCH SERVICE, UNITED STATES DEPARTMENT OF 
                  AGRICULTURE, WASHINGTON, DC

    Ms. Jacobs-Young. Good morning, Chairman Roberts and 
Ranking Member Stabenow and the distinguished members of the 
Committee.
    My USDA colleagues and I represent the agencies that 
exemplify the mandate expressed in President Abraham Lincoln's 
1862 executive order establishing the Department of 
Agriculture, which the Department was charged with conducting 
practical and scientific experiments to improve the quality and 
security of agriculture in the United States.
    As U.S. Department of Agriculture's chief scientific in-
house research agency, ARS has about 1,900 scientists at 90 
laboratories located throughout the United States, that carry 
out the mission and constitute an important component of USDA's 
science enterprise. We have world-class research laboratories 
from Maine to Hawaii, and we maintain research facilities in 
France, China, Argentina, and Australia, that serve as bases 
for our insect, pest, and biocontrol collection efforts.
    ARS has internationally recognized scientists working on 
every issue affecting American agriculture today, be it disease 
and insect pest, water use, soil erosion, drought, improving 
production yields, food safety, or crop and animal management 
strategies. Key to our success has been our strong partnerships 
and our collaborations. We work closely with our land-grant 
university partners, scientists from other federal agencies, 
international organizations, and many industry scientists and 
producers.
    ARS scientists have played an important role in providing 
the objective science that action and regulatory agencies 
depend on as they set their policies. ARS's institutional 
capacity, our wide-ranging expertise, and our geographic reach 
allows us to conduct coordinated and integrated research, 
targeting national and regional agricultural priorities of 
importance to our many stakeholders.
    Since its inception, USDA has recognized the importance of 
having both intramural and extramural scientific research. The 
strength of having an intramural agency provides ARS and the 
USDA, and the United States, with unique capabilities, and we 
have huge responsibilities. We are responsible for conducting 
that research that is inherently governmental--public service, 
public good research.
    We support the action of regulatory agencies within USDA 
and across the Federal Government with sound scientific data. 
We maintain essential germplasm collections. In fact, we have 
the largest germplasm collection in the world. We conduct long-
term nutritional studies and maintain very, very important 
databases. We operate long-term experimental watershed 
facilities. We respond to emergencies and national disasters. 
We engage in long-term research to meet national goals.
    This infrastructure expertise and nationwide network of 
partnerships is needed to respond quickly to national 
agricultural emergencies, for example, the H1N1 swine flu 
virus, the highly pathogenic avian influenza, or soybean rust, 
and to prepare for those emerging diseases such as Ug99, stem 
rust disease of wheat, or foot-and-mouth disease of cattle that 
are not yet here in this country, but we will be prepared.
    So how does all of this benefit America? Over the years, 
our public investment and the cooperation in agricultural 
research among the private sectors, universities, and 
government has given Americans the safest, most nutritious, and 
most abundant--and might I say most affordable--food supply 
anywhere.
    So agriculture has formed the foundation of our nation, the 
national economy, for the past 200-plus years, and our 
agricultural research has been the key to that success. Thank 
you.
    [The prepared statement of Ms. Jacobs-Young can be found on 
page 75 in the appendix.]
    Chairman Roberts. Yes, ma'am. Thank you for a very strong 
statement.
    Dr. Rockey.

     STATEMENT OF SALLY ROCKEY, PH.D., EXECUTIVE DIRECTOR, 
 FOUNDATION FOR FOOD AND AGRICULTURAL RESEARCH, WASHINGTON, DC

    Ms. Rockey. Mr. Chairman, Ranking Member Stabenow, and 
members of the Committee, I am Sally Rockey and I am the 
Executive Director of the Foundation for Food and Agricultural 
Research, known as FFAR. I am honored to have the opportunity 
to testify before you as Congress considers its priorities in 
the next farm bill.
    As you know, FFAR is an independent 501(c)(3) nonprofit 
organization, established with bipartisan support in the 2014 
Farm Bill to serve as a new and unique model in our nation's 
mission to be the global leader in food and agricultural 
sciences. We fund innovative science that is solving real-world 
problems, by filling research gaps and accelerating science 
through partnerships. An essential part of this model is our 
ability to leverage private sector funds to deliver huge value 
for the American taxpayer. The U.S. government's $200 million 
investment in FFAR eventually returns more than $400 million in 
valuable science.
    FFAR unites researchers with funding partners like venture 
capitalists, industry, philanthropies, and expands the funding 
pool for agricultural science by coalescing groups together 
around common priorities. The foundation is also nimble and 
efficient, with the ability to award grants very quickly, and 
in some cases as little as in one week.
    Building a foundation from scratch was really no small 
task, but since I came on board in late 2015, FFAR has hired 
talented staff and developed reliable systems to protect the 
taxpayers' investment. Our esteemed board of directors has 
grown, and we have established advisory councils to guide us in 
our research.
    To date, FFAR has delivered $32.4 million and 22 grants 
with more than 41 funding partners. By the end of the year, we 
will have obligated about half of our $200 million in public 
funding, leveraging, as I said before, another $100 million in 
additional funds.
    Our first major research project was funded with the Samuel 
Roberts Noble Foundation. It was to increase the use of cover 
crops and create new cover crop resources, with the goal of 
significantly improving soil health, one of the most valuable 
resources for our farmers.
    We recently awarded our first Rapid Outcomes from 
Agricultural Research, or as we call it, ROAR, grant, in 
partnership with the Cherry Marketing Institute and Michigan 
State University, to combat an invasive pest that will benefit 
the fruit industry in eight states. This program demonstrates 
our ability to accept applications as critical issues arise, 
and to fund them very quickly.
    FFAR also is positioned to fund science that adapts to 
industry needs. For example--and you may have just read about 
the story this morning in The Washington Post--FFAR just 
announced a $2 million effort to address the emerging issue in 
cage-free egg production, to improve the health and 
productivity of cage-free hens.
    This week, we awarded a very innovative grant to the 
University of Illinois who is bringing together the latest in 
plant simulation models to predict how plants respond to their 
environment, which can vastly accelerate the pace and the 
development of new crops with beneficial traits.
    More robust funding and research will allow the United 
States to maintain its science prominence, and will give our 
producers the opportunity to apply cutting-edge research 
results and technologies to their operations. However, as was 
already stated, Federal funding for agricultural research has 
been relatively stagnant over the last decade. FFAR offers an 
opportunity to not only increase the overall funding pool but 
increase it for cutting-edge science.
    Not only does science drive our economy but it is also 
progressing at, really, what is a breath-taking pace. We are 
becoming a pivotal player at FFAR in seizing emerging 
scientific opportunities in the food and agricultural research 
community, and we know our model will serve us well in driving 
innovation in the future.
    One innovative process that FFAR is exploring now is 
photosynthesis. Photosynthesis is what makes a plant a plant, 
and it allows it to acquire energy from the sun. By increasing 
photosynthetic capacity, we can dramatically increase crop 
yields.
    We are grateful for the opportunity to continue to work 
with Congress to ensure FFAR is reauthorized and fully funded 
in the next farm bill, consistent with the bipartisan legacy, 
as an institution contributing to the long-term competitiveness 
of our nation's food and agriculture sector.
    To the members of this Committee who were so instrumental 
in establishing FFAR, I thank you on behalf of the entire food 
and agriculture community. Thank you.
    [The prepared statement of Mr. Rockey can be found on page 
94 in the appendix.]
    Chairman Roberts. Thank you, Dr. Rockey.
    Dr. Ramaswamy and Dr. Jacobs-Young, we are in the first 
week of the wheat harvest in Kansas. Not good news. We have 
lost about 40 percent of our crop due to a very late freeze. We 
had that 11-county, 850,000-square-mile prairie fire, a freeze 
before that. I have no idea what we have done to Mother Nature 
but she sure has taken it out on us.
    Your testimony references the work of Dr. Valent at K-
State, and what she has been doing in coordination with AFRI 
and ARS on wheat blast. You mentioned that in your comments. I 
understand that ARS research has been conducted through the 
wheat strip initiative, the wheat scab initiative, and the 
Insect Biotechnology Products for Pest Control and Emerging 
Needs in Agriculture projects. That is a lot of folks.
    Can you provide an update on these projects? Are there any 
partnership arrangements that are key to this work? How can the 
Department work be improved in these areas? Please, first, Dr. 
Ramaswamy.
    Mr. Ramaswamy. Thank you very much, Chairman Roberts. 
Indeed, the National Institute of Food and Agriculture is 
investing significant resources in helping develop new 
varieties of wheat that can withstand those early freezes, then 
the flooding situation, and then you have got the drying up and 
the drought situation as well. New varieties of wheat that are 
coming along, work being done at Kansas State University, at 
the University of Minnesota, at multiple universities across 
America, are going to have traits, characteristics in them that 
will allow them to withstand not just the biological 
constraints, such as wheat blast and other, insect problems as 
well. In addition, they will be able to withstand the 
environmental conditions, the extreme weather events that you 
referenced as well.
    We are, hoping that these varieties that are going to come 
along here, the investments that we are making now, will result 
in offering our producers better ways of dealing with the 
challenges that they face.
    Chairman Roberts. Dr. Jacobs-Young, any comments?
    Ms. Jacobs-Young. Yes. ARS manages the Wheat and Barley 
Scab Initiative, which is a coalition of university, federal, 
and industry partners. I would just like to say that they have 
been working very hard on developing new varieties that 
increase resilience and reduce vulnerability, and because of 
their efforts, over the past 10 years we have been able to 
reduce the amount of mycotoxin in wheat by 32 percent in durum 
wheat. We see some real evidence of the work that they have 
done in the varieties that have been released.
    We have also identified wheat that is resistant to Ug99, 
and while we do not have it here in the United States we have 
developed varieties that are being planted around the world. So 
we will be prepared. We have a diagnostic to determine the 
difference between Ug99 rust and other rust pathogens, and our 
wheat quality laboratories, which you are very familiar with, 
around the country, have been so instrumental to the wheat 
industry.
    So we are working very hard in releasing varieties that 
have increased tolerance or resistance to some of the diseases 
that we are being faced with.
    Chairman Roberts. Dr. Rockey, as one of the original co-
sponsors of FFAR, and a strong advocate for investment in 
agricultural research, we are certainly hoping for the long-
term success of the foundation. I appreciate your efforts to 
keep our committee updated as FFAR gets up and running. The 
last bill, as you have indicated, provided $200 million in 
mandatory funds as a seed investment to establish FFAR.
    In a time when there are almost no new programs being 
created, what are your plans to generate new funds and 
demonstrate project outcomes in order to enable FFAR to be a 
sustainable tool to support AG research into the future? I am 
especially interested in long-term investments. I know that you 
have a good record here in the last few months--well, the last 
six months--with short-term projects that are paying off with 
private partnerships. What about long-term?
    Ms. Rockey. Thank you for that question, Chairman. We have 
been working quite a bit on thinking about long-term 
sustainability as an organization. If you think about the model 
that was defined in the original 2014 Farm Bill, that model 
really only works when we have a continued financial investment 
from Congress. Really, the Federal funds are what attract our 
partners, and we are able to leverage them and bring in 
additional funds. So we leverage their funds and they also 
leverage the Federal funds, and that allows us to create this 
unique partnership and bring additional funds to the table for 
agriculture.
    But the reauthorization of FFAR as an organization really 
allows us to solidify as a viable research entity and a viable 
research institution, capable of funding our partners.
    We continue, as you noted, to fund projects. Some of our 
projects are very short-term. For example, in our rapid 
response program, grants are for year-long projects. We are 
able to put money on an issue quickly while the USDA then comes 
back in with some longer-funded projects. However, we also are 
funding some long-term projects. Our grants can range up to 
five years, and will continue to, depending on the type of 
science that comes across our transect. We will fund either 
long or short-term projects, depending on the goals of the 
particular project.
    However, as an organization, we continue to think about how 
to build on these short-term successes and our plans for the 
future. We have built a credible organization. We have 
established our research priorities. We are securing additional 
funds. We have a low operating cost right now, as an 
organization. We have launched a giving program. We are looking 
at ways to generate IP revenue, and we are seeking major gifts.
    So all of this is no small task but we are building on the 
success that we have had of late, for our long-term 
sustainability. We are really establishing our reputation, and 
I think that is a lot of what is going to take us into our 
future.
    But I want to make something very clear to you, that we 
will be a successful organization, and we will fulfill every 
intent that you had in authorizing us in the first place. We 
have demonstrated now that the model really does work, and it 
will, but it will be dependent on our continued support from 
Congress.
    Chairman Roberts. I thank you. Senator Stabenow.
    Senator Stabenow. Well, thank you, Mr. Chairman, and thank 
you to each of you, and Dr. Rockey, I was pleased to hear your 
comments, and I appreciate the grant that has been given most 
recently, two weeks ago, to tackle some specialty crop issues. 
I know there was a slow start, but things are moving now and I 
think it is very, very important that we continue to support 
this effort as a long-term effort.
    I did want to just comment, Dr. Jacobs-Young. You were 
talking about the Wheat and Barley Scab Initiative. It takes me 
back. I was a new House member in 1997. I authored that 
initiative with a then new Republican colleague, Roy Blunt, and 
we are now both in the Senate. But when my constituents would 
excitedly ask me what was my first bill, and I said ``wheat and 
barley scab,'' it was not really exciting, but I am really 
pleased to know that it is still going on and is actually 
making a difference, so thank you for that.
    I wanted to ask Dr. Bartuska about the whole question on 
scientific integrity. We are here talking about research, how 
important this is. We know, fundamentally, this is so important 
for our farmers and food safety and the food economy. But there 
is a lot of debate right now, and public scrutiny, about 
science, and about facts. Under the last Administration, USDA 
developed its first scientific integrity policy, as well as 
fostered a culture of scientific integrity.
    So I wonder if you could talk a bit about what the USDA has 
done to gain the trust of the public and demonstrate it is 
conducting unbiased scientific research, and how you are 
addressing issues around scientific integrity.
    Ms. Bartuska. Thank you very much for that question. We are 
very proud of our scientific integrity policy, not only that we 
initiated it very early on, among all the science agencies, but 
that we have since improved it and we have gone back out to 
many of the state of the art scientific integrity policies, in 
terms of what kinds of language you should have in a policy. 
What does a platinum version of a scientific integrity policy 
look like? We have refined it. We had a scientific integrity 
officer over the entire department. He, unfortunately, left but 
we were recently approved to hire a new one, even in a hiring 
freeze and at the time of some resource limitations.
    So the commitment USDA is making to a formal scientific 
integrity process is very high. It is investing in our own 
employees by providing training to all of our scientists. But 
we just recently agreed, many of the agencies, to extend that 
training to technicians and to those who use science but who 
are not scientists themselves.
    So again, there is a very strong commitment within USDA. I 
have to say, we were very pleased that the Union of Concerned 
Scientists, who had initially reviewed our first draft 
scientific integrity policy and found it wanting, have since 
reviewed all of the policies and have given us a very positive 
green light on what we have been able to accomplish.
    We believe that we have responded to the community and that 
we now have implemented a policy and an implementation that is 
demonstrating the highest standards of scientific integrity, 
and I think it is through our publications and the peer review 
process that the currency of science is reinforced.
    Senator Stabenow. Thank you very much. Dr. Ramaswamy, I 
wanted to ask you a little bit about organic research. All 
parts of agriculture are obviously incredibly important. 
Organic agriculture now counts for over 5 percent of the total 
retail food sales, as you know, making it one of the fastest-
growing parts of agriculture, and bringing more people into 
focus, in terms of the importance of growing food and the 
agriculture economy.
    We know that the Organic Research and Extension Initiative 
has contributed to that success, and I wonder if you might talk 
about how other research programs at USDA help those organic 
producers address challenges and meet the increasing demands 
for their products.
    Mr. Ramaswamy. Thanks very much, Senator Stabenow, for that 
question, and, indeed, to your point, organic agriculture is 
one of the fastest-growing segments of our agricultural 
enterprise in our nation, and it constitutes about $40 billion 
of farm value as we are looking at it, and continues to grow as 
well.
    The Organic Research and Extension Initiative, along with 
the Organic Transitions program are two of the programs 
specifically geared to provide funding for, research and 
extension efforts that support our organic producers. Along 
with that, the Agriculture and Food Research Initiative and our 
Specialty Crops Research Initiative also encourage applicants 
to submit grant proposals in support of organic efforts as 
well.
    So the sum total of funding that goes to organic type 
enterprises, within the competitive grants arena, is in the 
neighborhood of around about $40 to $50 million a year. Along 
with that, the support that we provide for experiment stations 
and extension, adds an additional $30 to $50 million of 
investments that the land-grant universities are making.
    So those discoveries, that knowledge, is certainly of 
significant use, whether it is pest control, pest management, 
or dealing with the soil health and other issues as well.
    Senator Stabenow. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Bennet.
    Senator Bennet. Mr. Chairman, I want to thank you for 
holding an excellent hearing. This is a great panel, and 
timely, I think, because of the budget that has been submitted. 
So I really appreciate it.
    Dr. Jacobs-Young, for 110 years the Central Great Plains 
Research Station in Akron, Colorado, has been working with 
local groups like the Colorado Wheat Growers to research crop 
varieties that grow best in local conditions. That is a very 
big challenge, as in my state. They also focus on new 
management techniques to conserve water and soil resources, 
helping the environment and improving the bottom line for farm 
businesses, generation after generation, for more than a 
century.
    Despite this, the President's fiscal year '18 budget 
proposes closing this station and 16 other similar research 
stations across the country. I wonder if you could tell the 
panel a little bit about the role these research field stations 
play and how they work to provide useful information to local 
growers and producers.
    Ms. Jacobs-Young. Thank you so much for your question, 
Senator.
    As Dr. Bartuska shared, and the Chairman as well, we have a 
huge goal ahead of us, of feeding 9.7 billion people by 2050, 
and ARS is right at the center of helping us achieve that goal. 
We were faced with the task of having to find $161 million in 
reductions for ARS, and through that process----
    Senator Bennet. Who gave you that task?
    Ms. Jacobs-Young. It is a part of our President's budget 
proposal.
    Senator Bennet. Yes.
    Ms. Jacobs-Young. --ARS has the reduction of $161 million.
    Senator Bennet. Yes.
    Ms. Jacobs-Young. As you can imagine, over the past years, 
because budgets have not grown tremendously, we have done a big 
job of trying to look across our portfolio, using data to 
streamline and consolidate.
    So we are at the point where every decision we make today 
is a tough one. Everything that we give up today, is important, 
but we have to make the decision to make these reductions and 
we used three criteria for how we are doing this.
    The first one, we looked at our employees. ARS is who it is 
because of our people. How do we minimize the impact to our ARS 
scientific workforce? Therefore, we looked at extramural 
funding. The second one is that we looked at those things that 
preserve ARS's infrastructure--our germplasm collections, our 
LTAR network, our critical databases, et cetera, et cetera. So 
we looked at those things and said that we needed to protect 
those because they are uniquely what ARS provides to the 
scientific community.
    The third one was we had to balance the portfolio, and 
using data to determine the capacities of all of our research 
projects in our locations. So when we took a look across the 
portfolio, we looked at those locations and projects that might 
be challenged, from a resource perspective human capital, 
infrastructure, IT, and dollars.
    So we used a data-driven process to look at everything, to 
make those decisions. Unfortunately, Akron is on the list for 
proposed cuts in FY 18.
    Senator Bennet. Well, it is not----
    Ms. Jacobs-Young. I assure you it was a data-driven process 
and it was not an easy one.
    Senator Bennet. Well, it is not. I can tell you that it is 
not going to be acceptable to me, and I don't think to the 
United States Senate, to cut it, because there is no 
replacement for it, and, frankly, I hope I speak for other 
members of the Committee when I say that because of the 
leadership of the Chairman and the Ranking Member in the last 
farm bill, this is the only committee that actually created 
deficit reduction. This committee did. The people that we 
represent in farm country in the United States stepped up to 
the plate, when no other committee in the Congress did that. No 
other committee did that. For them to be presented with a 30 
percent cut to the Department of Agriculture is an insult. It 
is worse than an insult. It is a war on rural America, I think, 
and rural Colorado.
    There is not a replacement for the Akron Research Station. 
There is not anybody else who is going to help our wheat 
farmers do what they need to do, or wheat growers do what they 
need to do, year after year, because of changes in the climate 
and changes in the environment.
    So I can appreciate that you made a ``data-driven'' 
decision and I think it is a terrible decision, for the people 
that I represent in my state, and I think, in the context of 
this Committee doing its work in a way that, because of your 
leadership, Mr. Chairman, and Senator Stabenow from Michigan, 
it is entirely unacceptable to me that they are trying--and 
they do not even balance the budget. So they have an unbalanced 
budget that they are trying to balance on the backs of our 
farmers and our ranchers, and it is absolutely unacceptable to 
me, because of the work that we have already done. The 
sacrifices that have already been made in an environment with 
commodity prices where they are, it adds insult to injury and 
it is utterly unacceptable.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Bennet, thank you very much for 
reading the speech that I wrote.
    [Laughter.]
    Senator Bennet. I hope I put the emphasis in the right 
places.
    Chairman Roberts. Some of the adjectives were a little out 
of line, but I think we can do that.
    Senator Bennet. Thank you. I am always happy to repeat your 
words.
    Chairman Roberts. The President proposes and we dispose. I 
do not know of any--this is not an admonition I would like to 
expound upon, but the President proposes, we dispose. There has 
been a lot of talk about this budget, more especially in my 
view on crop insurance, AG research, et cetera, et cetera. That 
is not going to happen. It is simply not going to happen. We 
are in dire circumstances, and as you have indicated, we have 
given and given. We have got crop insurance cuts, $6 billion, 
and then seeing what they have done, like Lizzie Borden taking 
an ax and cutting another $6 billion. Then there was another 
three in the omnibus, which we saved.
    We stand ready to do what we have to do and meet our budget 
responsibilities, and I thank you for your comments.
    We have--Senator Donnelly is gone. It will be Senator 
Casey. Thank you.
    Senator Casey. Mr. Chairman, thank you. Thank you and the 
Ranking Member for having this hearing, and what a great panel, 
and I wish we had even more time.
    I wanted to start with Dr. Bartuska with regard to the 
Chesapeake Bay and nutrient management. I will also, in the 
interest of time, to try to get at least to a second major 
question for Dr. Ramaswamy on lead in soil.
    But let me start with the Chesapeake Bay. In Pennsylvania, 
our state is the source of much of both the fresh water for the 
Chesapeake Bay and also much of the nitrogen and phosphorus 
pollution that enters the Chesapeake Bay, so I am particularly 
concerned in nutrient management tools, technologies, and 
practices that can help Pennsylvania's farmers meet Chesapeake 
Bay restoration goals.
    Could you tell us about the work of USDA with regard to 
nutrient management, either on the modeling and forecasting 
side or the actual on-farm nutrient management?
    Ms. Bartuska. I would be happy to. Actually, as a born-and-
raised Philadelphian, I am well aware of the connection between 
Pennsylvania and the Bay, and actually worked in that area 
about 20-some years ago. I am glad to say we have made 
improvements, partly because we have recognized what can be 
done on farm to reduce runoff. Bringing those practices into 
place through extension has been really important. I have to 
commend our University Park ARS lab, partly, for some of the 
research, as well as our competitive grants program.
    But in particular, connecting our research and science as 
information through extension and Natural Resource Conservation 
Service, Farm Service Agency, so that they know what those 
practices are, to help encourage them to adopt them but also to 
give them the tools they need to be able to do that.
    When it comes to lower down in the watershed we are 
increasingly looking at tools to reduce the impact locally. Can 
we do remediation on site? Can we be doing better modeling--I 
am sorry--monitoring of those sites, including in water 
columns, so you get real-time estimates of what nitro and 
phosphorus loading is happening and can take action?
    You mentioned modeling. That has been one of the areas 
where we, with the university community, have really tried to 
better connect a specific practice with what it does, in terms 
of the nutrient loading, and then address those loadings.
    Then, lastly, I have to acknowledge the Economic Research 
Service that has done quite a bit of work on the economics and 
the decision-making of farmers--why they choose practices, why 
they choose some practices over other practices, and 
identifying how can we provide them the tools to make a better 
decision.
    We really have everything from biogeochemistry and the 
chemistry of the site to the water quality, measuring to the 
monitoring to the modeling, and then the extension piece.
    Senator Casey. How about kind of the appropriations budget 
question, which is, do you have the resources to do what you 
just talked about? Any--do you have a sense of what your 
resources are to carry out that task?
    Ms. Bartuska. I think we are still assessing what the 
specific implications of the '18 President's budget is and what 
projects and what specific activities take place. I do know 
that through NIFA's competitive grants--and Dr. Ramaswamy might 
talk to this--the water challenge area is continuing to focus 
on that.
    We will continue to support the highest priority work and 
nutrient management is part of the portfolio that we believe is 
very important for agricultural producers.
    Senator Casey. Well, I hope if you need more resources, 
obviously, we hope you tell us over time, when you have a sense 
of that.
    Thank you very much, Doctor, for that. You were born in 
Philadelphia, you said?
    Ms. Bartuska. Yes.
    Senator Casey. That is great. Well, we always want you to 
come back.
    Ms. Bartuska. Yes, from East Falls.
    Senator Casey. Oh yeah. Thank you so much.
    I also wanted to raise a question on lead with Dr. 
Ramaswamy. I have heard from constituents across our state, 
obviously in the context of what happened in Flint, Michigan, 
with regard to water, but in our state, a major challenge is 
lead, lead paint in the old homes, and the numbers might be 
even higher there. But also, I just got off the phone this 
morning with a reporter investigating lead in the soil, and I 
know that is not what your testimony was directly about, but 
your testimony indicated that NIFA worked with Michigan State 
Extension and Edible Flint on a program focused on lead in the 
soil if you want to grow--if people want to grow their own 
food.
    Is there anything you can tell us about that initiative, or 
initiatives like it, that would be helpful in the context of 
just folks that might have lead in their soil in their back 
yard and they may not be growing food. But what would you 
recommend and what could you do to help on that?
    Mr. Ramaswamy. Yeah. Indeed, I would like to, Senator 
Casey, speak to the work that is going on in your state, in 
Pennsylvania, and folks at Penn State, as well as the Rodale 
Institute, are--they have received funding from NIFA, both 
competitive funding as well as what we refer to as capacity 
funds for the experiment station and extension.
    Very specifically, to address the question that you asked 
of Dr. Bartuska as well, in regards to the eutrophication of 
the Chesapeake Bay with excess nutrients going through, and 
also tied to soil health itself, very recently, Professor 
Heather Gall received an Agriculture and Food Research 
Initiative funding on that question of developing approaches to 
mitigating the movement of these nutrients that are impacting 
the Chesapeake Bay. Also, Joseph Keller at Penn State is 
looking at improving soil health. By growing certain types of 
crops and trees and things like that, that can--there have been 
some poplar trees that have been developed, varieties that have 
been developed, that can specifically go in and remove lead and 
other heavy metals, like arsenic and things like that, as well.
    We continue to invest resources in soil. If we do not have 
good soil health, as you know, we will not have good crops and 
livestock in our agricultural systems. We are going to be hurt.
    I want to get back to, specifically, after you asked the 
question, do we have enough resources and things like that, 
and, the funding rate within the Agriculture and Food Research 
Initiative today, we do a three-year rolling average over the 
last three years, sits around 13 percent. Over the last three 
years, on average, we have received pretty close to 3,000 
proposals, of which the grants panels, these peer panels that 
we have, have recommended over 1,200 of those to be funded. 
Many outstanding, many in high priority. Unfortunately, we have 
only funding to support just about 480 of those proposals.
    Senator Casey. Out of 1,200.
    Mr. Ramaswamy. Yes, sir. So a lot of them----
    Senator Casey. Then we have got to go----
    Mr. Ramaswamy. --are, left on the floor.
    Senator Casey. He is tapping.
    Mr. Ramaswamy. Yes, sir.
    Senator Casey. Thank you, Mr. Chairman. Thank you, Doctor.
    Chairman Roberts. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. Dr. Ramaswamy, in 
your testimony you mentioned how NIFA collaborates with other 
government agencies such as DOD, NIH, NSF, VA, and a host of 
others. Can you discuss, in more detail, how collaboration 
works, and perhaps give us some examples of the work done 
through collaboration?
    Mr. Ramaswamy. Thanks so much for that question. I was 
hoping that one of you was going to ask me that question.
    Indeed, the innovations and collaborations with the 
National Science Foundation, the National Institutes of Health, 
U.S. Agency for International Development, the Environmental 
Protection Agency, the Department of Defense, Veterans 
Administration, we have a number of those. I will give you two 
examples in the field of, biophysical sciences, and then I will 
give you an example in regards to the opioid crisis that we 
have got as well.
    So we have got, with NSF and NIH, we partner with them in 
this area. We refer to it as the Ecology and Evolution of 
Infectious Diseases. There are a number of infectious diseases 
that impact animals, plants, honeybees, as well as livestock 
animals and humans. There is a commonality in some of these 
things, and some of them get vectored, carried by insects and 
other, species of arthropods and invertebrates. So trying to 
understand how these diseases, the epidemiology of the ecology 
of it, and things like that, and whether it is foot-and-mouth 
disease or colony collapse disorder in honeybees and others, we 
have collaboratively provided funding and we have this ongoing 
relationship with those agencies now.
    For every dollar NIFA invests, it leverages about $5 to $10 
from those other agencies. We partner, by the way, with the 
British Biotechnology Research and Science Council as well on 
those topics.
    In regards to our relationships with the Veterans 
Administration and the Department of Defense, and Health and 
Human Services, we partner with those agencies and the 
substance abuse and mental health service agency, SAMHSA, and 
deploying funding that they provide to us through interagency 
agreements, that goes through extension to address the opioid 
crisis, for example, amongst our veterans and active duty 
service members' families, children and their families as well.
    Then, as you know, we have got this terrible scourge of the 
opioid crisis across the United States, and those partnerships 
are critically important because the--our extension community 
is in every one of our 3,141 counties, boroughs, and parishes. 
We have got a footprint throughout the nation. That is being 
utilized to deploy information to help those communities.
    A good example of that is in Michigan and Ohio and Indiana, 
amongst the Amish community. Their children are exhibiting 
significant use and abuse of drugs and opioids. Our extension 
folks at Purdue University and Michigan State University and 
Ohio State University are working together to address the 
opioid crisis as well.
    So those are a couple of examples.
    Senator Boozman. Very good. That is excellent.
    Dr. Jacobs-Young, can you describe, in more detail, the 
importance of the ARS extramural research projects? How is ARS 
able to leverage what you learn with the extramural research 
with what you learn at your intramural facilities?
    Ms. Jacobs-Young. So one of the beauties of having an 
intramural agency is that all of our employees are Federal 
employees, outside of just our contractors, our postdocs, and 
others, so the expertise we do not have internal to the agency, 
we are able to use the extramural funding to partner with 
expertise at universities, at corporations. We are able to use 
those extramural funds to sort of bridge the gap between the 
expertise we have inside ARS. Most of those extramural grants 
are with our land-grant partners, and so we leverage those 
resources to get the job done.
    I think it is also important to note that sometimes those 
extramural resources are used as a convening resource, to bring 
together groups of people to work on some high-priority topics. 
That is how we use the extramural funding inside of the agency.
    Senator Boozman. Very good. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman. Dr. Bartuska, 
how will you direct ARS to conduct targeted on-farm data 
collection of antibiotic use?
    Ms. Bartuska. I am sorry, can you repeat that?
    Senator Gillibrand. How will you direct ARS to conduct 
targeted on-farm data collection of antibiotic use?
    Ms. Bartuska. The antimicrobial resistance work that we 
have going on across USDA has become a really high priority, 
and working specifically with ARS and NIFA, we have identified, 
principally through the partnership with HHS, on a portfolio of 
research that needs to be accomplished. The agencies will then 
build that into their programs and priority investments as they 
shape their fiscal year planning. For ARS, in particular, 
something we have worked with them through our priority-setting 
process out of the Under Secretary's office. We use the REE 
action plan, which was driven by the farm bill, to establish a 
set of priorities, and the antimicrobial resistance work is 
built into the overall priorities.
    Senator Gillibrand. Do you feel you need any additional 
authorities to enhance the AMR collection?
    Ms. Bartuska. Actually, I would like to defer that to Dr. 
Jacobs-Young.
    Ms. Jacobs-Young. Thank you. So ARS partners with the Food 
and Drug Administration where we are a part of NARMS, the 
National Antimicrobial Resistance Monitoring Program. We are 
their technical arm to do a lot of the on-farm data collection 
and analysis. We have been partnering with them for a number of 
years, and we look forward to continuing that on-farm data 
collection, because it helps us be able to trace where the 
antimicrobial resistance begins, and learn a little bit more 
about management practices.
    We have been partnering with the FDA on that and we have a 
huge portfolio in antimicrobial resistance inside of ARS, 
looking at immune systems between animals, zoonotic diseases, 
looking for alternatives to antibiotics, looking at probiotics, 
for example, for use in chickens, that is in use right now, 
FloraMax, which was developed by ARS. It is currently in use to 
minimize the prevalence of enteric diseases in poultry and are 
actively advancing vaccine development.
    We have been working and we have a lot of great experts 
working on AMR, and I think the agriculture community could 
benefit from a lot of information for decision-making.
    Senator Gillibrand. I agree. I would be grateful if you 
would work with my office on further issues on this.
    Ms. Jacobs-Young. Would love to do that.
    Senator Gillibrand. Mr. Ramaswamy, did you want to add 
something.
    Mr. Ramaswamy. Yes, if I may, Senator Gillibrand. So NIFA's 
portfolio funding in the world of antibiotics and antimicrobial 
resistance over the last few years, particularly in relation to 
this interagency collaborative effort, we are investing--we 
have been investing between $5 and $15 million each year on 
looking at it from the farm to the dinner table, rather than 
just focusing on any one small part of it, looking across the 
food chain, the value chain itself, and the data that are 
coming out now in regards to improved animal husbandry and 
management, how might that help mitigate the amount of 
antibiotics to use, et cetera. These are all, new data that are 
really driving the management of our herds in many, many 
situations, and poultry flocks as well.
    Senator Gillibrand. Well, to the extent you need any 
additional resources or authorities, please let us know, 
because we would like to provide that with you, because I think 
this needs to be a national priority.
    On the question of organics, Dr. Bartuska, how do you 
intend to increase the resources available to organic farmers 
or those that are transitioning, so that we can meet the 
domestic demand without having to rely so heavily on imports?
    Ms. Bartuska. We have noted, through the Census of 
Agriculture, as well as through work done by the Economic 
Research Service, there is increasing demand by those who are 
going into farming, to want to go into organic farming. 
Programs such as the ones at NIFA that Dr. Ramaswamy has 
already mentioned have been made available. We are actively 
promoting these programs through extension to these new farmers 
who want to move into organics.
    Part of it is also creating more tools for them, lot of the 
organic production is in specialty crops, and so growing the 
specialty crop program is another way that we see it as being 
very important for them to do.
    I might defer to both Dr. Ramaswamy and Jacobs-Young to 
talk more about their specific programs, if that would be all 
right.
    Mr. Ramaswamy. Yeah, so picking up where Dr. Bartuska left, 
we have the Organic Research and Extension Initiative and the 
Organic Transitions Program funding that is provided, and 
collectively they provide in the neighborhood of around $20-
plus million. We also have proposals that are submitted to us 
through our other competitive grants as well, so that is one 
part of it.
    Then the Beginning Farmers and Ranchers Development 
Initiative, that brings in literally thousands of new aspirants 
wanting to get into the food and agricultural enterprise, there 
is a tie-in that is being provided that allows them to develop 
the knowledge and skills, the marketplace, the credit, the 
capital, et cetera, that is definitely needed in the world of 
organic agriculture.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator. We are awaiting 
Senator Daines who would like to ask a question, specifically, 
and I will give him about 30 seconds to show up.
    [Laughter.]
    Senator Gillibrand. I have a question for the record, if I 
could ask, Dr. Rockey.
    Chairman Roberts. I would be delighted----
    Senator Gillibrand. Okay.
    Chairman Roberts. --to have you ask a question of Dr. 
Rockey.
    Senator Gillibrand. It is about the pollinator health fund, 
and I know the next panel will talk about pollinators as well, 
but to the extent you could tell us about the fund, some of the 
partner groups, and what research you expect to see supported 
by this initiative, I would be grateful, because, obviously, 
for upstate New York, for the Hudson Valley, our pollinators 
are essential. We grow a lot of fruits and vegetables. So the 
colony collapse disorder has created enormous worry and strain 
amongst our--both beekeeper populations but also our farmers.
    So to the extent you could just do a briefing for us on the 
status, and any authorities, money, research you need added in 
the farm bill. Thank you.
    Chairman Roberts. Senator Brown.
    [Pause.]
    Senator Brown. I ask consent for another 60 seconds for 
Senator Gillibrand.
    Chairman Roberts. You have already used 30 seconds. Let us 
go.
    [Laughter.]
    [Pause.]
    Chairman Roberts. It is that second page.
    Senator Brown. Yes. Thank you, Mr. Chairman. I apologize. I 
was at two other hearings today and I apologize for not being 
right now in the moment.
    Dr. Ramaswamy, thank you for--all of you on the panel, 
thank you for your work. Thanks for walking the Committee 
through the work USDA does on the opioid crisis. In my state, 
more people die from opioid overdose than any state in the 
country. We are not the highest per capita; we are among them. 
But the tragedy particularly hits rural Ohio hard. That is one 
of the reasons that so many of us are alarmed at efforts in 
this body to take away insurance from people getting opioid 
treatment. In my state alone, 200,000 people right now are 
getting opioid treatment, many of them in rural Ohio, getting 
opioid treatment right now, and who are getting the treatment 
because they have insurance through the Affordable Care Act. So 
thank you for running through that.
    I want to talk for a moment about extension agents and how 
extension agents are so many faces in USDA. I think back on 
our--I went to the county extension agent in Richland County, 
Ohio, when my brothers and I were going to plant apple trees on 
our family farm, and I remember that the extension agents said, 
``Now when you prune these apple trees, prune them until you 
think you have killed them and then prune them a little more.'' 
We only followed their advice on about half the trees, because 
we just could not bring ourselves, as novices, to prune them as 
far back as we should, and those ones we pruned as far back as 
the AG extension agents told us were the ones that thrived the 
most. So thank you for the accumulated wisdom of decades of ag 
extension and what you do.
    How do we--700 folks at OSU Extension in Ohio, 700 folks, 
from helping small dairies to improving water quality to help, 
in my case, again, an urban gardener in Cleveland, Ohio, grow 
tomatoes. I did not stay on that family farm. Sorry. I want to 
ask this. How do we continue to empower these individuals to 
continue to address the ever-changing challenges inherent in 
agriculture and to interact with the increasing number of 
constituents who are interested in how their food is grown, 
where it comes from, and, in many cases, even growing it 
themselves? How do we sort of empower ag extension, a group of 
very committed, very talented men and women?
    One more point. John McCracken, in my office, was talking 
about the mission statement and sort of the history of ag 
extension, and it just is--it is so important, and they love 
their jobs so much and what they contribute to our society. Dr. 
Ramaswamy?
    Mr. Ramaswamy. Senator Brown, thanks so much, and I 
appreciate your kind words that you spoke about our extension 
community, and you are absolutely right. Without extension--
this is a model that the rest of the world wants to emulate--
our nation--and I truly believe this--would not be globally 
pre-eminent. Our ability to translate knowledge and deliver 
that knowledge in the form of innovations and solutions, the 
hallmark of extension, is truly at the basis of why we have 
such, affordable food that is safe and nutritious, that the 
rest of the world wants to emulate as well.
    We have seen, over the last about 20 years or so, with the 
continuing challenges in America with our budgets, at the state 
level, at the county level, and at the Federal level, our 
extension footprint, across America, on average, in every 
state, has been reduced by 30 percent. We have lost a number of 
those boots on the ground, even in Ohio. What they have done is 
rather than going and having extension agents in every county 
they have now had to reduce that and create what we refer to as 
districts, so that you have agents servicing multiple counties. 
We see this across America, and that is the challenge that we 
have got.
    All of us need to wake up and really be concerned that this 
is going to be, putting us in a significantly challenging 
situation if we are not able to make sure that extension agents 
are not going to be working together.
    So in regards to your question, how do we empower them, we 
continue to work with the land-grant universities and, 
obviously, funding is one part of it but we also host 
stakeholder conversations and make sure that the researchers 
and the extension folks are all working together. But the 
challenges that are being felt--and, earlier I said that what 
NIFA does is inspired by the end users. So the contact with the 
end users is critically important for the work that needs to be 
done.
    Then the work that is undertaken, the research that is 
undertaken, that is translated and delivered by our extension 
folks, transforms people's lives, and that is sort of an 
empowerment that we have had, historically, and we continue to 
do so, despite the fact that we are facing these budget 
challenges and things like that. It really comes from 
partnering with other agencies, partnering with the non-
governmental sector, the Farm Bureau, the various commodity 
groups and other, and understanding what it is, and being a 
little bit more effective and smart in delivering that 
information, and utilizing technology as well, in, really 
looking at a multi-faceted approach to staying engaged with the 
end users.
    Senator Brown. Thank you. Mr. Chairman, could I do--could I 
ask Dr. Jacobs-Young a question that she can respond to?
    Chairman Roberts. Very quickly.
    Senator Brown. Okay. Thank you.
    Chairman Roberts. I know we are coming up on vote.
    Senator Brown. Central State University in Wilberforce, 
Ohio, is the newest 1890 land-grant, even though it has been 
around for a while, Dr. Jacobs-Young, as you know. If you would 
just, in writing, respond, because of time, and because Senator 
Klobuchar just arrived, and Senator Daines has questions. Could 
you tell us how ARS works with Central State and other HBCUs to 
increase capacity at the university, at best utilize its 
existing strengths? CSU has already started a STEM summer 
program for middle school students, and if you would give us an 
answer to that in writing--I apologize for doing it that way.
    Ms. Jacobs-Young. Okay.
    Senator Brown. Okay. Thank you so much, Mr. Chairman.
    Senator Daines. Thank you, Mr. Chairman, Ranking Member 
Stabenow. Thank you for coming before this committee. I want to 
thank Chairman Roberts for joining me in Montana earlier this 
month. We had a Montana Ag Summit and it was a home run. I tell 
you, the people of Montana were very appreciative of you being 
there, Mr. Chairman.
    Chairman Roberts. My pleasure.
    Senator Daines. Thank you for coming. I have got to tell 
you, just before we get into the questions here, there is a 
picture today, I just got tweeted, that warms my heart. It 
shows a picture of the Governor of Nebraska with a few great 
big boxes. They are air-freighting U.S. beef into Shanghai 
today, and that is really a huge moment. The second-largest 
beef import market in the world, China, and it is open now to 
U.S. beef, and that is a real milestone here for agriculture.
    Chairman Roberts. If the Senator would yield, I would like 
to pay credit to him for going to China, because of his 
background and prior serving in this body, I want to thank you 
for your initiative.
    Senator Daines. Thank you, Mr. Chairman. Well, it was a 
great team effort and we are glad to see U.S. beef moving into 
China now.
    One theme that stood out in the summit that the Chairman 
was at in Great Falls, Montana--really, it is in the heart of 
the Golden Triangle, our wheat country in Montana--was the 
importance of ag research in ensuring that producers in Montana 
and the U.S. at large continue to be the most productive and 
most efficient farmers and ranchers in the world.
    Dr. Jacobs-Young, you highlighted, in your testimony, the 
importance of ARS labs throughout the United States, and I 
could not agree more. Montana farmers and ranchers value the 
great work conducted at ARS labs, in Sidney and Miles City, 
Dubois, Idaho, that provide research essential to our Montana 
grain-growers, ranchers, wool-growers, producers across the 
state as well as the nation.
    Could you speak about the range and livestock lab, 
actually, in Miles City, and the Sheep Experiment Station in 
Dubois, Idaho, that we are currently working on?
    Ms. Jacobs-Young. So in Dubois, Idaho, one of the things 
that we are working on there is sheep production, and one of 
the beauties and the unique nature of the Dubois location is 
the opportunity to graze at higher elevations, to be able to 
study the interface between wildlife and domestic animals.
    As you most likely know, for many years we have not been 
able to graze in those higher elevations because of legal 
challenges to the interface, and the possibility of impact on 
grizzly bears and bighorn sheep, and so we have been faced with 
those lawsuits since 2007. We have had some difficulty 
completing our mission at Dubois, Idaho, in terms of the 
grazing patterns we are trying to research.
    In Miles City, Montana, we also look at rangeland 
management of livestock and beef. We have some very important 
work that is being conducted there where the goals of the work 
at both of those locations are critically important, and in 
some cases we have some challenges being able to conduct that 
research.
    Senator Daines. Well, thank you, and while all these 
stations discussed have been targeted by prior administration, 
they provide invaluable research. I have spent time out in 
Miles City, spending time with the researchers. It is 
invaluable research to our farmers and ranchers across a state 
like Montana.
    You know, we are from a pretty arid state.
    Ms. Jacobs-Young. Right.
    Senator Daines. We do not get a lot of rain, and it is so 
important to understand the grasses and so forth and these 
interfaces you talk about. In fact, the Bighorn Sheep 
Foundation is now--their headquarters is in my hometown of 
Bozeman----
    Ms. Jacobs-Young. Yeah.
    Senator Daines. --and we are working constructive with the 
wool-growers, our sheep operations, the folks of the Bighorn 
Sheep Foundation, to ensure we can have both, and I think we 
can. We are going to need this research. So we are going to 
continue to work hard to prevent these closures from occurring, 
and keep them moving forward.
    I want to shift gears and talk about our tribes. Montana is 
home to 12 federally recognized Indian tribes, 7 Indian 
reservations, and the state recognizes the Little Shell Tribe. 
Ag play an essential role in Indian country economies. Montana 
also has seven tribal colleges, spread throughout the state, in 
fact, the most of any state in the United States. These 
colleges play a critical role in disseminating research and 
best practices to tribal farms and ranchers.
    Dr. Ramaswamy, how is USDA working with tribes and tribal 
colleges to ensure that tribal producers have access to the 
latest research and are aware of the research-related services 
made available by the USDA?
    Mr. Ramaswamy. Thank you very much, Senator Daines, and, 
indeed, the U.S. Department of Agriculture, broadly writ, works 
very closely with our tribal populations and tribal colleges, 
and specifically my agency, NIFA, the National Institute of 
Food and Agriculture works with the 36 institutions we have 
across America and the 7 in your state as well.
    There are a number of projects that we support. We offer 
funding for research, for education, for extension. There is 
also what is referred to as the Federally Recognized Tribal 
Extension Program as well, that partners with our 1862 
institutions to bring knowledge to our tribal populations.
    We provide funding and the good thing is that very recently 
several tribal colleges, they partnered together to work on 
bison, for example--this is part of their heritage--on 
improving the breeds of bison--breeding of bison. That is a 
project that we provided funding through our Agriculture and 
Food Research Initiative. There is another one that is 
developing varieties of relevance to tribal populations that we 
have provided funding to as well.
    So there are a number of projects that we provide funding, 
both through our competitive grants programs as well as through 
the regular capacity funds that we provide.
    Senator Daines. Dr. Ramaswamy, I am out of time now, but 
thank you. You have answered the question well. I am going to 
turn it back to the chairman.
    Chairman Roberts. Thank you. Senator Klobuchar.
    Senator Klobuchar. Thank you very much. I am back. I had 
another hearing and good to see all of you. I know many 
questions have been asked but I have not asked them, so here we 
go.
    The research is very important in my state, and even with 
all the advances that you have made, I think you know that it 
has been estimated that we will need to produce more than twice 
as much food as we do today to feed 9 billion people in the 
world. Do you think additional investment will be necessary to 
meet future demands in the ag sector when it comes to research?
    Anyone can take that.
    Ms. Bartuska. Let me go ahead and start and then pass it 
over to the administrators. We definitely have produced, from 
our research, the ability to grow more food on less land, more 
efficiently, and that has continued to be the driver. We see it 
as absolutely critical. This figure of 9.7 people in 2050 is 
just looming in my brain, and every day I think about what we 
have to do to make our investments the most efficient.
    Within our resources available, we are going to continue to 
focus on that, with laser-like attention, and I think this is 
where we need to continue to be innovative.
    One of the things that I mentioned earlier, is that we know 
that if we make these investments in agricultural research the 
benefits are great, and so we need to improve that--continue on 
that track.
    Senator Klobuchar. Thank you.
    Ms. Bartuska. But there is not enough land to grow the 
amount of food----
    Senator Klobuchar. Right.
    Ms. Bartuska. --so we have to be creative, and one of the 
areas that is in the area of----
    Senator Klobuchar. I want to ask some specific questions 
now----
    Ms. Bartuska. Okay.
    Senator Klobuchar. --but I appreciate that. One of the 
specific things that affects my state, recent outbreaks of 
avian influenza, the PEDV and other emerging diseases highlight 
the significant threats facing animal agriculture and the need 
for more research in this area, one of the reasons I am so 
concerned about budget cuts proposed by the Administration to 
USDA.
    Dr. Ramaswamy, can you talk about the importance of the 
National Animal Health Lab Network, and are more resources 
necessary for that research.
    Mr. Ramaswamy. Senator Klobuchar, thank you so much for 
that question. Absolutely. We have, across America, several 
enterprises that protects the biosecurity for our food 
systems--the National Animal Health Laboratory Network, the 
National Plant Diagnostic Network, and other efforts of that 
sort that protect the biosecurity.
    Unfortunately, when we look at cybersecurity--this has been 
on the news lately here, with the Chinese and the Russians 
hacking us--we are spending about $75 billion to protect our 
cybersecurity. To protect the biosecurity of our food systems 
we are spending a sum total of about $38 million in America. I 
joke, but very seriously, if all of our computers are hacked, 
we can go back to using paper and pencil. If our food systems 
are hacked, we are in serious trouble.
    Senator Klobuchar. Yes.
    Mr. Ramaswamy. So the National Health Laboratory Network 
and these other networks we have got are critically important 
for us to ensure that we are meeting the needs of protecting 
the biosecurity, and I agree with you that I dare say we are, 
really, really short in the investments that we are making. 
These networks that were created post 9/11 are falling apart, 
and we have to make sure we protect them.
    Senator Klobuchar. Okay. Thank you. Dr. Jacobs-Young, 
researchers at the U of M in my state are increasingly working 
the area of phenomics, which focuses on measuring the physical 
and biochemical traits of organisms as they change in response 
to environmental influences. Can you talk about the value of 
emerging plant science techniques, like phenomics?
    Ms. Jacobs-Young. Absolutely, and back to your original 
question, I think this one is very relevant.
    You know, agriculture is a very high-tech industry. We do 
not just put the seed in the ground and hope something happens. 
We have many, many plant breeders, both on the classical--what 
we call classical breeding side, as well as our advanced 
technology side, and it is important for us to be able to 
generate data that enables us to speed up the process.
    I would like to just share that, Dr. Edward Buckler from 
our Cornell location in ARS, received the first prize for food 
and agriculture from the National Academies of Science, and it 
is through partnership with the Foundation for Food and 
Agriculture Research. He received that prize because his work 
in the genetic evaluation of maize has saved lives. It has 
helped deal with the vitamin A deficiencies around the world 
which result in stunting. But, he is only able to do that 
because we have been generating data for years and years and 
able to turn that data into solutions. That is why genomics and 
phenomics and all the other ``omics'' are extremely important 
to us as we try to innovate in agriculture.
    Senator Klobuchar. Okay. Very good. I appreciate it. On the 
record I will ask a question about research initiatives to 
expand the use of ag commodities in non-food markets, so thank 
you for your work.
    Chairman Roberts. Thank you. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. Thanks to all of 
our witnesses for being here, and I want to express my very 
strong support for agricultural research. Growing up in western 
North Dakota we grew primarily small grains, and now, thanks to 
the incredible ag research and development that has been done 
we can grow amazing variety of crops, ranging from corn and 
soybeans to all the pulse crops, to oilseed crops, as well as 
all of the small grain crops.
    Diversity in agriculture has truly been a real benefit, 
certainly for farmers, and for our ranchers, but for the 
American people, because we can grow so much more food and 
provide that variety, and, as I say, about agriculture every 
chance I get, our farmers and ranchers provide the highest 
quality, lowest cost food supply in the history of the world, 
and ag research is a really big part of it. It is a big, big 
deal. So we need to support ag research funding in the budget, 
and I chair Ag Appropriations so I have every intention--we 
have every intention of doing that, and I know our Ag Committee 
Chairman and Ranking Member share that sentiment.
    I think, as a matter of fact, he even has some pretty good 
ag research in Kansas, and I know there is some pretty good ag 
research probably in Michigan too.
    Chairman Roberts. You do not want to go there, but go 
ahead.
    [Laughter.]
    Senator Hoeven. There is a little rivalry between North 
Dakota State and K-State.
    My question is, how do we leverage, private and other 
public investment with our ag research funds? So what are--
because we want to fund ag research but we want to try to 
leverage those funds.
    So from each of you, just talk a little bit how we can do 
more to leverage private, and other public funding, with the 
funds that we provide for ag research.
    Ms. Bartuska. How about if I start and we end with Dr. 
Rockey, who probably has the home run answer.
    Part of it is we really do need to be reaching out to an 
emerging group of private partners, those that we have not 
necessarily worked with in the past, and to really understand 
what their needs are, where they need to be in 5 or 10 years, 
and be able to build that knowledge into our programs. So for 
me it is expanding those partnerships by reaching out to new 
individuals and new organizations.
    Senator Hoeven. Are you actively doing that?
    Ms. Bartuska. Sorry?
    Senator Hoeven. Are you doing that? I mean, how do we do 
that----
    Ms. Bartuska. Well, part of it----
    Senator Hoeven. --in a concerted way.
    Ms. Bartuska. I would say one way we are doing that is the 
composition of our National Advisory Board, the NAREEE board, 
the National Agriculture Research Education Extension Economics 
Advisory Board, who advised us.
    By choosing qualified members and being able to have a 
nomination process to ensure that we have new and diverse 
members applying for that board, and then working with them as 
they are on the board, and then after they leave.
    We are really expanding our connections, so that is one 
example that has been a very productive approach to take. The 
other is just really reaching out to the business community, to 
be able to reach out to those who are in agricultural research, 
those who use the National Ag Statistics data, they are ones 
who are very interested in how can they continue to grow our 
databases to be able to make better assumptions about the crops 
and the commodities they are dealing with.
    So those are two really big areas that are very ripe for 
more partnerships and more outreach.
    Mr. Ramaswamy. Senator Hoeven, good to see you again, sir.
    Senator Hoeven. Good to see you. Thanks for your good work.
    Mr. Ramaswamy. Well, thank you very much. From NIFA's 
perspective, we leverage, for every dollar that NIFA invests 
there is $1.86 that is returned in leverage, and there are 
several tools that you, Congress, has provided us to be able to 
do that, this leverage of the public-private leveraging, non-
governmental organizations, and others. For example, in the 
last farm bill we have the commodity board provision, which we 
match, dollar for dollar, and commodity boards come to us and 
they say they want us to invest on particular topics, and so 
NIFA co-invests with them. That is one approach that we have 
used.
    A second approach that we have used, again, thanks to what 
Congress did in the previous farm bills, particularly with the 
2008 Farm Bill, which created NIFA, we created what we refer to 
as coordinated agricultural projects. These are the huge grants 
that we have provided. You know, these are like $10, $20, $40 
million grants. One of those grants was given to a consortium 
of institutions that includes a bunch of private sector folks 
as well, led by Washington State University. They had an 
airplane fly out of Seattle-Tacoma airport back in November, on 
November the 14th, with their congressional delegation that 
came to Reagan National, flying on ``woodchips.'' That 
project----
    Senator Hoeven. Flying on what?
    Mr. Ramaswamy. Flying on woodchips. The woodchips were 
converted into----
    Senator Hoeven. You are making that up. I know you are.
    [Laughter.]
    Mr. Ramaswamy. Seriously. Get your head wrapped around that 
image, right? That particular project, for a $40 million 
investment, has leveraged almost $200 million of additional 
from the private sector, from the non-governmental sector that 
have come in and invested resources as well. That includes some 
of our Native American tribal populations in the Northwest as 
well.
    So those are a couple of examples, and I am going to pass 
to Dr. Jacobs-Young.
    Ms. Jacobs-Young. So just very quickly, I would like to say 
that at ARS, we deliver a lot of products inside of our 
laboratories, and then we work with businesses to get them 
moved out into commercializations, the Apples in the Happy 
Meals at McDonald's, lactose-free milk, instant potatoes, the 
potatoes that are used for Pringles. All those things were 
developed in ARS, but once we discover it and deliver it, we 
work with the private industry to move it out. Sometimes that 
includes exclusive license, if that is necessary, but often it 
is just in the partnerships, and through other mechanisms.
    Ms. Rockey. Senator, as you know, our foundation was 
created with that exactly in mind. For every dollar that we 
spend we leverage another dollar from the private sector. So it 
is really about finding those in the private sector or 
commodity groups or other potential partners who share our 
goals for the research. We often times use our convening power 
to bring those individuals and organizations to the table so we 
can decide collectively which areas of research would be the 
most important to go through, either first or to place our 
funding on.
    So it is important for our relationship and for our 
foundation to work to bring together those private-public 
partnerships.
    Senator Hoeven. You are finding that USDA, ARS, NIFA are 
all very receptive to that, right----
    Ms. Rockey. Oh, absolutely.
    Senator Hoeven. --and you are able to work with them and do 
creative things----
    Ms. Rockey. We work very, very----
    Senator Hoeven. --leverage resources.
    Ms. Rockey. We work very, very closely with USDA. They are 
our closest partners. Not only that we complement their work 
but we have, for example, ARS scientists intimately involved in 
many of our projects. We work closely with NIFA through the 
AFRI program to see where our research programs can come in and 
fill gaps or white spaces that the AFRI programs may not be 
covering. We have great relationships with the USDA.
    Senator Hoeven. Good stuff. Thank you all.
    Chairman Roberts. Dr. Ramaswamy, as you know there is a 
facility now being under construction at Kansas State called 
NBAF. It comes as a result of the danger of agro-terrorism. 
Some time back, in a city called Obolensk, which is not too far 
from Moscow, that is one of the secret cities during the time 
that Russia was much more open than it is today, there were 
large amounts of pathogens. I would imagine that it is still 
there. I hope it is still there, but under Mr. Putin it is a 
whole different matter. The intelligence community would let 
you know that it is in the top 10, top 5 things they worry 
about, is an attack on our food supply.
    I would like to visit with you about that, and also anybody 
else that wants to chip in, but we are now in a voting process 
on the first of three votes. Senator Stabenow will return and 
then we will switch back and forth.
    I want to thank all of you for taking time out of your 
valuable schedule to come. Usually when we have a hearing like 
this, I get to come up, shake your hand, thank you, visit with 
you a little bit more, but we have some time constraints. So 
thank you so much, and I would like to welcome our second panel 
of witnesses to come before the Committee.
    Mr. Ramaswamy. Thank you very much, Chairman Roberts.
    Ms. Jacobs-Young. Thank you.
    Ms. Rockey. Thank you, sir.
    [Pause.]
    Chairman Roberts. We will proceed with the next panel.
    First I would like to introduce Dr. Floros, Dr. John 
Floros, of Kansas State University. He has been the Dean of the 
College of Agriculture and Director of K-State Research and 
Extension since August of 2012, and under his leadership K-
State established the Center on Wheat Genomics and successfully 
competed to host four Feed the Future labs on wheat, sorghum, 
and millet, and post-harvest loss reduction and sustainable 
intensification of agriculture. He was recently recognized by 
the Food and Drug Administration for his distinguished service 
to the people of the United States, as a member of the Science 
Board to the FDA. Welcome. I look forward to your testimony. 
Doctor, it is good to see you again.
    Mr. Gary McMurray, Senator Perdue is on his way to 
introduce you, and so we will wait until the distinguished 
Senator arrives.
    Then we have Dr. Kerry Hartman. Doctor, I am going to give 
this a good go. This is a welcome that Senator Heitkamp wanted 
to proceed, and that Senator Stabenow then said she would read, 
and now she has given it to me while she is voting. So stay 
with me here.
    I want to give a warm welcome to Dr. Kerry Hartman, 
Academic Dean and Sciences Chair at Nueta Hidatsa Sahnish--and 
the parens here on how to really do that is to say Nueta 
Hidatsa Sahnish College. I struggled through that. I apologize, 
sir.
    Dr. Hartman has spent the past 25 years conducting 
agriculture research and teaching on the Fort Berthold Indian 
Reservation in North Dakota. His research has focused on land, 
water, the environment, and native plants and wildlife that are 
central to the lives of the Mandan, Arikara, and Hidatsa 
people.
    I think that I am looking for a second page and obviously 
we do not need that with that introduction.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman, it is my honor 
this morning--good to see you----
    Chairman Roberts. Thank you.
    Senator Perdue. --it is my honor to introduce Gary McMurray 
this morning, a fellow Georgia Tech guy, and I am pleased to 
introduce him as a graduate. He received his bachelor's and 
master's degree in mechanical engineering from Georgia Tech and 
is now a Principal Research Engineer and Division Chief at the 
Georgia Tech Research Institute's Food Processing Technology 
Division. He has been with the institute for over 25 years. He 
is also the Associate Director for Collaborative Robotics at 
the Institute of Robotics and Intelligent Machines at Georgia 
Tech.
    Being from a non-land-grant college, Mr. McMurray's 
perspective on ag research is especially important to spur 
innovation beyond traditional methods of food production. Mr. 
McMurray's research has focused on the development of robotic 
technologies and solutions for the manufacturing and 
agribusiness communities. His focus on research that brings 
experts from non-agricultural fields together with ag 
scientists is crucial to defining new technologies that can 
benefit farms and ultimately the consumers they feed.
    For the previous four years, Mr. McMurray led a strategic 
initiative on the future of agricultural sensing that involved 
a multidisciplinary team of engineers, computer scientists from 
Georgia Tech, and plant pathologists and agricultural engineers 
from the University of Georgia.
    He is currently leading a National Robotics Initiative 
project in conjunction with partners from the University of 
Georgia, that is funded by the USDA, to develop an automated 
system to identify plants that are potentially suffering from 
soil, nutrient, and water deficiency problems.
    Thank you, Gary, for being here today. We appreciate and 
look forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator Perdue. It is my 
privilege to introduce Mr. Steve Wellman from Syracuse, 
Nebraska, where he and his family grow soybeans, corn, winter 
wheat, and alfalfa, as well as manage a cow-calf herd on their 
fourth-generation family farm. Mr. Wellman has served in a 
variety of capacities through his agriculture career, as 
President of the American Soybean Association, an inaugural 
board member of the Supporters of Agriculture Research, and on 
the USDA/USTR Agricultural Technical Advisory Committee for 
Grains, Feeds, Oilseeds, and Planting Seeds.
    We thank you all for coming.
    We will start with Dr. Floros.

STATEMENT OF JOHN FLOROS, PH.D., DEAN AND DIRECTOR, COLLEGE OF 
 AGRICULTURE AND K-STATE RESEARCH AND EXTENSION, KANSAS STATE 
                 UNIVERSITY, MANHATTAN, KANSAS

    Mr. Floros. Senator Roberts, thank you, sir, for inviting 
me and good to see you again.
    Chairman Roberts. Thank you. EMAW.
    Mr. Floros. There you go.
    Chairman Roberts. That stands for`` Every Man A Wildcat''. 
I want to explain that to the others.
    [Laughter.]
    Mr. Floros. Sir, I would like to start by apologizing for 
my appearance here. It took me more than 20 hours to fly here 
from Manhattan, and my bag did not make it, so my apologies for 
looking a little----
    Chairman Roberts. I think your attire is splendid, sir. 
Please proceed.
    [Laughter.]
    Mr. Floros. What I would like to do today is talk a little 
bit about the land-grant system and its importance to our 
research, agriculture research, and then very briefly talk a 
little bit about agricultural and food research and several 
components of its importance, the impact, and the long-lasting 
value of such research, so that you and your Committee can 
actually continue to support the research and our efforts.
    Finally, I want to talk a little bit about infrastructure, 
as well as workforce issues, and I am going to start by briefly 
saying how important the land-grant system has been, over 150 
years now, for this country, and the well-being of the American 
citizens, particularly because we have the teaching, research, 
and extension components as part of that. I would like to 
stress that food security and political security are connected, 
and both of those are directly connected to food and 
agriculture innovation, and it is driven by agriculture and 
food research.
    In terms of ag research, what I would like to point out is 
that most of the investment that comes through USDA, the land-
grant system, it is actually matched 1-to-1, in some cases 7 or 
8-to-1, by other investments, from state governments, local 
governments, and other sources as well. So we will appreciate 
continuing that investment because not only it is supplemented 
by other sources but also because its impact has been long-
lasting.
    You heard earlier from USDA that the return is about 20-to-
1, and I am sorry that the Chairman is not here, but that 
return in the state of Kansas is actually 33.6-to-1. So the 
return of agricultural research is very, very high, and you 
will be pressed to find anything higher than that. I also would 
like to say that AFRI should be really brought up to its 
appropriations of $700 million, because we have a lot of 
challenges coming up, as you all know.
    One of the points I wanted to stress has to do with food 
science and technology-related research. We put some emphasis 
on agriculture but we are not putting as much emphasis on food 
science and food processing and manufacturing. Food 
manufacturing per se, it is almost 15 percent of American 
manufacturing, and we are not really emphasizing much of that 
in our portfolio of investments. It used to be that half of 
every dollar goes to the farmer from the consumer, but today 
only probably one out of seven dollars goes to the farmer from 
the consumer. The rest, $6, are actually added value, and that 
is what we need to capture. We have divested from this area, 
and as a result, I think the American manufacturing segment of 
food and agriculture has suffered, and innovation is now coming 
from elsewhere in the world because of that.
    I also would like to say a few words about international 
research in food and agriculture. USAID invests a lot of money 
in that. We do a lot of work in that. Much of what we do 
benefits other countries out there in the world, but most of 
the information we generate comes back to the U.S., to help our 
own farmers, our own ranchers, our own industry, to improve and 
get better.
    A couple of things about infrastructure. There was a study 
that has been done very recently. Throughout the country, food 
and agricultural research infrastructure is suffering from 
really negligence in terms of our buildings and their 
maintenance. There was a study that shows that about $8.4 
billion are needed to just bring the infrastructure to today. 
Just at K-State alone, we just did a study and it shows $550 
million worth of needs right now to our own infrastructure.
    Finally, I want to put a couple of comments about capacity 
funding and you all know what that is, and USDA talked a little 
bit about that. Just in the last 50 or so years, the 
improvement of the U.S. agriculture has been about 2.5 times, 
when you look at productivity, compared to where we were 50 
years ago. Capacity funding had a lot to do with that. 
Everybody talks about the green revolution. We are going to 
have to actually have a second green revolution if we are to 
meet the needs of a growing world. It is not just the growth in 
population. It is also the growth in middle class. It is the 
diversity of the population. The food system, the global food 
system, needs to respond to all of those, and for that I think 
we need to continue to invest in capacity funding as well as 
NIFA and AFRI.
    The final point I wanted to make is training the next 
generation, and it is critical that we find ways to train more 
people in agriculture and in food. A USDA study shows that we 
only provide maybe a little more than half of the workforce 
that we need today, and we will need more tomorrow.
    So with that, I have overstated my time. I would like to 
assure the Committee that every dollar we invest in food and 
agricultural research, it will be worthwhile spent and we will 
see very long-term return and huge impact because of that.
    Thank you so much for giving me the opportunity.
    [The prepared statement of Mr. Floros can be found on page 
61 in the appendix.]
    Senator Stabenow. [Presiding.] Thank you, Dr. Floros, and 
let me just indicate that we are in the midst of three votes 
and Chairman Roberts and I are playing tag-team back and forth, 
and we apologize that members are being pulled in a number of 
directions.
    Dr. Floros, I want to just underscore what you said about 
food manufacturing, as a state that does a lot of food 
manufacturing, how important that is.
    Mr. McMurray.

  STATEMENT OF GARY MCMURRAY, DIVISION CHIEF, FOOD PROCESSING 
TECHNOLOGY DIVISION, GEORGIA TECH RESEARCH INSTITUTE, ATLANTA, 
                            GEORGIA

    Mr. McMurray. Thank you very much, Chairman Roberts, 
Ranking Committee Member Stabenow, and other Committee members. 
It is really an honor to be here today and to represent Georgia 
Tech, which is a non-land-grant institution, and the work that 
we are doing in agriculture. I, myself, am honored to lead a 
team of 28 research faculty members, 14 academic faculty 
members, and over 40 students, working in the area of 
agribusiness and food manufacturing. So we have over 45 years' 
experience working in this through a state-funded program 
called the Agricultural Technology Research Program. So we have 
a lot of experience in this area, working in sensors, robotics, 
and sustainability.
    Georgia Tech is one of the leading engineering schools 
within the nation. It has outstanding reputation from NSF, 
DARPA, DoD, and Department of Energy. One of the things we are 
trying to do is leverage that expertise, which is funded from 
other government agencies, bring that to the world of 
agriculture.
    But one of the things which is very critical to us is that 
we are very much involved in the multidisciplinary approach. 
All of our projects have partners--at University of Georgia, 
University of Florida, and other land-grant institutes--because 
we really recognize the synergy that comes about when you bring 
the engineers together with the scientists. They really come up 
with groundbreaking and new ideas, and this is something that 
we really want to see continue.
    I would like to talk about several projects that we are 
focused on. We are mainly focused on yield improvements, 
because that is a critical issue to feeding the global 
population. We have two projects right now we are focused on: 
presymptomatic disease detection and field scouting for abiotic 
stress. These issues are very important for a number of 
different reasons. Currently we still lose over 12 percent of 
our crops to disease and approximately 16 percent of our crops 
to pests. So addressing these issues will go a long way to 
addressing some of the issues, which are of major concern.
    We do this through a couple of different areas. We focus on 
novel sensors as well as robotic systems. In the novel sensors, 
we have been working on a micro gas chromatograph, which takes 
a traditional gas chromatograph, which works in a laboratory 
environment, we have reduced it down to something the size of a 
9-volt battery size, which can now be field deployed and can 
actually, in real time, take air samples and process that.
    Why is that important? Because plants emit volatile organic 
compounds, and those compounds will give you tremendous insight 
into the health of the plant. Not only can we recognize stress 
in plants but can actually target and actually identify 
specific pathogens and diseases that are attacking the plants. 
That is very important.
    We are also looking at root sensors to be able to actually 
look at the root mass, and this has tremendous value in 
agriculture. This, actually, this type of multidisciplinary 
work is something that we feel would really be better served 
through the creation of something we call ARPA AG. These types 
of programs have been very successful in a number of government 
agencies, and it is the opportunity to do high-risk, high-
reward, but really bring the scientists and the engineers 
together to work on critical issues in agriculture.
    So, in conclusion, the land-grant institutes are very 
interested in working in agriculture, because it is a major 
problem that we face in the world. We think that we can bring 
expertise, from NSF, DoD, and other agencies, to bear on this 
problem in a very unique way, and this is something that we at 
Georgia Tech are very excited about and really look forward to 
contributing as the process goes.
    So I thank you very much for the opportunity to be here, 
and I look forward to answering your questions.
    [The prepared statement of Mr. McMurray can be found on 
page 81 in the appendix.]
    Senator Stabenow. Thank you very much. Dr. Hartman, 
welcome.

 STATEMENT OF KERRY HARTMAN, PH.D., ACADEMIC DEAN AND SCIENCES 
 CHAIR, ENVIRONMENTAL SCIENCES, NUETA HIDATSA SAHNISH COLLEGE, 
                     NEW TOWN, NORTH DAKOTA

    Mr. Hartman. Thank you very much, Ranking Member Stabenow, 
and I wish Chairman Roberts was here. I would like EMAW to him 
also. My daughter graduated from our college and is now 
attending vet school at Kansas State.
    On behalf of the nation's 34 tribal college land-grant 
institutions known as the 1994s, thank you very much for this 
opportunity to talk about our place-based research. Indian 
country includes some of the most isolated and economically 
challenged regions in the United States, but our lands are rich 
in natural resources and our people are among the most 
resilient in the world. Within this context, tribal colleges 
are working to strengthen our tribal community economies, to 
revitalize our cultures and languages, and to protect, restore, 
and sustainably use our lands, waters, and traditional foods.
    Since 2001, my undergraduate students and I have been 
conducting culturally and economically relevant research under 
the USDA/TCU programs. The goal of my current NIFA research 
project, conducted with tribal game and fish biologists and 
South Dakota State University, Mr. Thune, Senator Thune, is to 
figure out how to develop and maintain an environment that will 
support the native pollinators of Amelanchier cultivars, or 
juneberries, as well as other native fruits. Juneberries are an 
ancient plant. There are high levels of protein, calcium, 
antioxidants, sustained generations of native people throughout 
the northern plains and woodlands, until native pollinators and 
juneberry stands fell victim to Western expansion.
    Ranking Member Stabenow, a juneberry is very, very, very 
similar to a blueberry. If they were sitting here together, you 
cannot tell them apart. Down the road I hope to do research on 
the genetics. I do not know whether it was convergent evolution 
or divergent evolution or just the luck of the draw, but these 
two berries are very, very similar.
    Back to my written statement now.
    If we can restore the juneberry native habit we can 
sustainably cultivate crops for local use and small farm 
commercial production, helping to grow our reservation's 
economy and improve the health standards of our people.
    We are also helping to restore the identity and cultural 
pride of the Mandan, Hidatsa, and Arikara people. This project 
would not happen without USDA support for our specialty crop 
research. The need for research into emerging technologies for 
small farmers, invasive species management, sustainable growth, 
and security, is essential in Indian country, as the juneberry 
research attests to.
    As you work to reauthorize the farm bill, I have three 
quick recommendations. We need to acknowledge the value of 
undergraduate place-based research and education. The Farm 
Bill's research provisions should specifically acknowledge that 
diversity matters. Students and faculty at 1994s and the 
minorities and the small institutions can enhance the call to 
competency and research capacity of the next generation of 
agricultural scientists and practitioners. This is extremely 
important in expanding our U.S. workforce as well as the global 
economy.
    Second would be to resist efforts to consolidate Federal 
STEM research programs. We will lose research opportunities 
under the President's budget proposal to consolidate Federal 
STEM programs. History demonstrates it is small and poor 
institutions, like all of the 1994s, cannot compete against 
Research I and the large land-grant institutions.
    Thirdly, to establish McIntire Stennis eligibility for the 
1994s. This is a matter of equity. In 2008, the McIntire 
Stennis Act was amended to include tribal lands and a formula 
for state forestry programs but tribal land-grant institutions 
were excluded. Please amend the McIntire Stennis formula to 
include 1994s with the forestry programs.
    Mr. Chairman and Ranking Member, the modest Federal 
investment in the 1994 institutions has already paid great 
interest in terms of increased employment, access to higher 
education, and research opportunities and economic development. 
Continuation and growth in this investment makes sound moral 
and fiscal sense.
    Thank you.
    [The prepared statement of Mr. Hartman can be found on page 
68 in the appendix.]
    Senator Stabenow. Thank you so much for your testimony. Mr. 
Wellman, welcome.

 STATEMENT OF STEVE WELLMAN, FARMER, WELLMAN FARMS, SYRACUSE, 
                            NEBRASKA

    Mr. Wellman. Yeah. Thank you, Ranking Member Stabenow, and 
also I appreciate the invitation from Chairman Roberts and you 
and the rest of the Committee to appear here today, to really 
discuss the science and innovation which is the very essence of 
farming. My perspective is, as a third-generation farmer, 
farming the same fields that my father and grandfather did, 
plus a few more.
    We need three things to get American agriculture growing: 
sun, rain, and research. There is not much I can do about the 
first two, but when it comes to research, I can lend my name, 
my time, and my voice, to policymakers, encouraging you to 
renew American leadership in agricultural science.
    Sufficient Federal investment and wise policies are 
essential if the United States is to continue to be a global 
leader in agriculture. As SoAR founder, Bill Danforth, has 
remarked, ``Food is too important to the human race to be a 
research afterthought. It needs to be a high priority for the 
nation's entire scientific community,'' and I would add, for 
the entire nation.
    Traditionally, we have thought of agriculture science in 
terms of improving yields, preventing soil erosion, and 
adapting crops to a variety of growing conditions. Today, 
agriculture stands to realize significant gains through 
interdisciplinary research across numerous scientific fields, 
including data science, nanotechnology, biotechnology, and 
genomics. To capitalize on these relatively modern fields of 
science we need to ensure we have a modern Federal research 
enterprise, and that is why I am urging you to give the entire 
USDA research, education, and economics mission area your full 
attention.
    Public agriculture research spending peaked in 1994, and 
has since declined 20 percent. The 2008 Farm Bill authorized 
AFRI at $700 million annually, yet funding has reached only the 
halfway point of that level. As a percentage of total Federal 
research investment, USDA has fallen to less than 3 percent of 
the annual Federal investment. Put another way, research 
funding for other Federal agencies is nearly $60 billion. 
Research funding at the USDA research mission area tops out at 
just over $2 billion, an amount that has remained virtually 
unchanged for decades.
    On our non-irrigated farm, conservation of natural 
resources is a constant focus. Farming practices such as 
contour terraces, no till, drought and insect-tolerant seeds 
and cover crops are all implemented. Field scripts prescribing 
varieties to plant managing nutrients to maximize yield while 
controlling inputs, are also used. Thanks to modern science, 
these are all effective and productive practices. Will they be 
in the future, and will new research demonstrate ways to 
improve?
    What we do today is based on years of research and 
learning. Where will the knowledge to improve U.S. production 
practices come from in the future without public research 
leading the way?
    American agriculture is a marvel of the world but that does 
not mean the world is standing by. As you mentioned earlier, 
China has increased their investment at a double-digit pace and 
are actually outspending the United States on ag R&D at this 
point. Funding rates in the European Union has increased and 
their grant proposals are nearly a 40 percent success rate. In 
the U.S., AFRI grant applications are between 10 and 15 
percent, and only around 25 percent of the projects they rate 
highly receive support.
    For fiscal year 2015, the most recent research AFRI 
analysis shows a total of 2,694 competitive grant applications, 
requesting just under $1.8 billion. They were received and 
reviewed through the competitive peer review process. An 
additional 884 proposal were recommended for funding by review 
panels and could have been supported provided an additional 
$690 million was available for the program. A modernized 
system, supported with additional investment, is the plea I 
make to you today.
    In closing, I leave you with a question. How certain are we 
that we can provide food security for 10 billion people by the 
middle of the century? The U.S. has been the world leader in 
agricultural production and innovation for decades. This is a 
role the U.S. needs to retain. I believe it will not happen 
without a strong commitment to public research, from Congress 
and our Administration.
    Thank you.
    [The prepared statement of Mr. Wellman can be found on page 
105 in the appendix.]
    Senator Stabenow. Well, thank you very much to each of you, 
and I could not agree more, Mr. Wellman, about the importance 
of agricultural research and what this means to the future of 
the country, and to farmers, and to all of us.
    Mr. Hartman--Dr. Hartman, I wanted to ask you first if you 
might just expand a bit on the important benefits of 
partnerships with the tribal communities and other land-grant 
universities and so on. I know we, in Michigan, have some 
terrific examples of that with Michigan State University and 
our tribal colleges. But these have been very important 
partnership and I wondered if you might expand a bit on that.
    Mr. Hartman. Thank you for that question very much. They 
enable us--partnerships with other land-grant institutions 
under the NIFA 1994 program, partnerships are required with 
land-grant institutions and state institutions or agricultural 
research stations. These partnerships assist us in carrying out 
the grant's primary emphasis, which is on training students in 
sciences.
    Through the collaborations and cooperative projects, I 
personally have grown significantly in my education philosophy, 
research capabilities, professional contacts, and, most 
importantly, in terms of educational research. Scientists, 
researchers, professors, career professionals from multiple 
institutions are now readily available to me. I have contacts 
at NDSU. I graduated. My PhD was from South Dakota State 
University. I have done my pollinator research and most of my 
cultivator research was with South Dakota State and North 
Dakota State.
    Our initial--well, I think one of the first NIFA land-grant 
collaborative was a huge one, with Iowa State. There was four--
forgive me--I think they are the 1864s, the original land-
grants, the ones that were started under the Morrill Act. There 
was four Morrill Act and four tribal colleges--North Dakota, 
South Dakota, Nebraska Community College, and Sinte Gleska. 
That grant was a huge grant and we still have connections. I 
was able to achieve my PhD through a collaboration of that 
grant. We did lots of partnerships. We like to say that we help 
educate the 1884s also, to extend their understanding of the 
tribal communities, and to bring their scientific expertise out 
to our communities, and to take some of our students over 
there.
    As I mentioned, here is--the Chairman is back. As I 
mentioned, my daughter graduated from our tribal college and 
she is now attending veterinary college at Kansas State 
University. EMAW there, sir. We have lots of students that have 
transferred to the institutions after these collaborations were 
begun.
    So I hope I addressed your question. They offer us research 
capabilities and scientific--laboratories that we, of course, 
are not capable of maintaining, and research expertise, also, 
from their professors. We like to say we offer them a very 
different ecosystem also. For instance, North Dakota State is 
in the Red River Valley, and we are on high, arid, western 
North Dakota, so we have very, very different ecosystem climate 
characteristics, et cetera.
    Chairman Roberts. [Presiding.] I apologize to this panel. 
You are caught in those merry-go-round moments that we have on 
occasion, where we have had three votes, and the distinguished 
Ranking Member was helpful to--she is voting. I just voted. We 
have another vote, so time is of the essence, and I apologize 
because we have, or I have quite a few questions for you, as 
would every member of this Committee.
    Dr. Floros, you mentioned that the price and availability 
of food directly impacts the political stability of our 
country. But we are currently experiencing low commodity 
prices. Food insecurity around the world certainly remains of 
serious concern, especially South Sudan, Yemen, Somalia, 
Northern Nigeria. How can we better leverage USDA domestic and 
international research efforts to help support the goal of 
producing enough food supply for the incredible 10 billion 
people that we may experience in the next several decades?
    Mr. Floros. Chairman, thank you. That is a great question. 
Not necessarily an easy answer, but definitely we need to 
invest more in looking at the system that helps our farmers and 
our ranchers plan better, and plan ahead, versus from year to 
year.
    There is no question that what happens in one part of the 
country affects what happens all around the world, but our 
system is not quite designed to figure that out ahead of time. 
So I think we need to be able to project forward a little 
better than we are today.
    The other thing that I think we need to work on is 
developing a system that is much more robust, in terms of the 
varieties that we use, in terms of the genetics we use for 
animal production, in terms of how much we lose from the farm 
to the table, to reduce food waste. All of that will impact not 
only prices but also the availability of food and the final 
prices of the food around the world.
    Today, in this country, we have the least expensive food 
supply in our history, and in the world, for that matter. That 
is a result of investing heavily in food and agricultural 
research, and I think if we continue to do that, it will help 
both our farmers and our ranchers in the long term, as well as 
our citizens.
    Chairman Roberts. Thank you. Mr. McMurray, as the 
representative of the non-land-grant institution on our witness 
panel, you bring a unique perspective. Your testimony mentioned 
that overhead issues matching requirements from the USDA may 
present engineering universities like Georgia Tech from 
participating in agriculture research. Do not let Sonny Perdue 
know that.
    In spite of the tough budgetary environments that many 
states are facing, are non-land-grant institutions or other 
significant food and agricultural programs still able to find a 
way to effectively leverage resources to match Federal grant 
dollars and do more with less? If you can, please explain how 
the overhead issue is negatively impacting the ability of 
Georgia Tech to utilize the USDA grant programs.
    Mr. McMurray. Thank you, Chairman, for the question. It is 
an excellent question, and I think it is one that is complex in 
some sense. We do see engineering as a critical component to 
agriculture, and we do want to play a role in this area. But 
when it comes to things with cost-matching and overhead rates, 
it becomes very difficult for us. My organization, at GTRI, we 
do not receive discretionary funding from the state, that we 
could use as leverage for cost-sharing or the cost match.
    So it becomes a serious impediment for many of the non-
land-grant institutes to participate in programs from USDA. I 
think that is unfortunate because I think there is much to be 
offered from these institutions. Many of these institutions 
have played major roles in some of the innovations in many of 
the industries throughout the United States, and they want to 
contribute in ag, but so far these issues have limited their 
ability to participate.
    Chairman Roberts. I appreciate that. Mr. Wellman, you 
mentioned research advances including drought-tolerant plant 
varieties and plant input management to help you reduce costs 
and maximize yields. Research on conservation practices like 
contour terraces, no-till farming, cover crops have some 
support but they have yet to be broadly adopted.
    Beyond seed technology and precise fertilizer application, 
what research opportunities in agriculture would most directly 
impact our producers on the ground?
    Mr. Wellman. Chairman Roberts, I just want to say to you 
thank you for the invitation to appear here today. To your 
question, agriculture is so diverse across the United States, 
and there really is a variety of needs for, depending upon what 
area the farmer is and the crops they want to produce, or that 
are needed to be produced.
    Maybe that is the question, the overarching question. Are 
we producing the right products? Are we producing the products 
that the world will need in the future, that was mentioned 
earlier, looking ahead as to what is needed. How do we 
transition? If that is the case, if there are other products 
that maybe are more nutritional in a smaller quantity, how do 
we transition from where we are now to something like that in 
the future?
    What we have recognized, up to this point, is from the 
technology side of it, with the biotechnology and then also the 
equipment that we use today, and the advancements that we have 
seen there. It is just amazing the progress that we have made, 
and the ability to produce more with less labor, which is 
another--I think, a future problem for us, as we move forward, 
is where is the labor force going to come from?
    The long-term aspect, the long-term view of where research 
money needs to be spent to really get a response that is 
beneficial to the farmer, the person that is going to use it 
and be implementing this research, and then, in turn, 
beneficial to the consumer.
    Chairman Roberts. Thank you, sir. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. Thank you to our 
witnesses. Dr. Hartman, it is great to have you here, 
representing Nueta Hidatsa Sahnish College in New Town, North 
Dakota, and the American Indian Higher Education Consortium.
    NIFA administers four programs for 1994 institutions, an ag 
equity program, a research program. The 1994 institutions often 
serve as the primary institutions of scientific inquiry, 
knowledge, and learning for tribal communities. The two other 
programs that I should mention, the competitive extension 
program and also research programs. So four different programs.
    In your testimony, you state all of these grant programs 
are critically important, to your college and the other 1994 
institutions. I guess my question would be, can you tell us a 
little bit more about the impacts that these programs and 
funding have on students, the colleges, and the communities?
    Mr. Hartman. Good to see you, Senator. I do not need this 
but I will use it anyway. Thank you for the question, sir.
    I will have to qualify my answer just a little bit. I am 
primarily involved with the research grants, the Tribal College 
Research Grants Programs, and I can talk about them for hours. 
I will address the extension. We are the extension agent on the 
reservation. So the previous panel was addressing the 
importance of extension, and at our land-grant institution, and 
many of the tribal colleges, we have an agriculture department, 
and our ag department administers the extension and the equity, 
and the one other grant, cooperative or collaborative. I do not 
remember what the other grant is, sir. My knowledge of them is 
somewhat limited.
    I know extension, we do a lot of activity with the Boys and 
Girls Clubs. We do Young Farmers program. We have--previously 
we had emphasis on young farmers, where we introduced everybody 
from grades--I think it was 4 through 6, up through 12. They 
were eligible for sheep and hogs program that we ran. We have a 
gardening program that we run, between those. Of course we do 
education. We have our small farmers and ranchers program that 
provides workshops and trainings.
    We work close--I should not say ``we''--they work closely 
with the tribe in administering some of the tribal activities 
and assisting with the bison project. Again, the tribal 
gardening and reinforcing the gardening, the elders' foods 
program. Just to briefly address those that I am least familiar 
with.
    The Tribal College Research Grants, we have been doing 
those since 2002, and we basically have three, I guess, three 
chair legs that we like to stress in our research. The first 
one, of course, is the educational component of implementing 
research in our undergraduate experience. We have a bachelor's 
degree in environmental science and our students plan--they 
choose, they plan, with my help and from the 1860s also, of 
course, we have a design component where we design our research 
projects. We conduct our own research. We have done everything 
from aquaculture, invasive species. We did a research project 
on leafy spurge, when leafy spurge was such a major issue out 
in western North Dakota. My juneberry research has been focused 
on small fruits and small crops. We have got the best cultivars 
we are trying to select out.
    But all throughout that we try to implement the concept of 
doing quality scientific research to our students, and 
validating the results, and repetition trials, et cetera.
    We also like to strengthen and reinforce the culture. Of 
course, the tribal culture is important, and that is one of the 
missions of all tribal colleges is to help perpetuate the 
cultures. Juneberries, for instance, they were harvested for 
centuries, and we have got elders in telling stories. We talk 
about the traditional use of the juneberry. Our nutritional 
research was conducted with South Dakota State University. So 
our students learned how to do nutritional analysis, in our lab 
and in the lab at South Dakota State, and, of course, we stress 
that with community members, in collaboration back with our 
extension people, of the results. Juneberries are extremely 
nutritious in antioxidants.
    Right now we--my current research is involving pollinators, 
and that would be native pollinators, primarily, and we are 
trying to understand the interactions with the environment, of 
course, and with the berries, and maximizing the pollinator 
habitat, and maximizing the pollinator food plots. That will 
hopefully improve not only the juneberry quality and quantity 
but also the plums and the chokecherries and the buffaloberries 
and the crabapples that are all there.
    But throughout all the processes, we like to stress 
introducing research to our undergraduates, as well as 
reinforcing the culture and the educational opportunities.
    Senator Hoeven. Well, again, I want to thank you for your 
outstanding work there for many years, in making a real 
difference, and then, I had asked the earlier panel, but 
anything we can do to help leverage funding from other sources 
to join with the NIFA money that you receive, we want to try 
and help do that.
    Mr. Hartman. Thank you, sir.
    Senator Hoeven. Thank you. Thanks for being here today, 
too, to all the witnesses.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator. Dr. Floros, you 
mentioned that for every $7 spent on food, about $1 goes to the 
primary agricultural production, with the remaining $6 spent on 
handling, processing, packaging, transportation, and 
distribution. Then, in the meantime, it is estimated that we 
waste 30 to 40 percent of the food produced in the United 
States.
    My question is, which research authorities might be most 
useful in considering efforts to reduce waste along the entire 
food supply chain, and subsequently, help cut costs related to 
food production?
    Mr. Floros. Senator, thank you for the question. The answer 
is not easy and it is not simple. I think there are a lot of 
things we need to do. We need to start by some of the comments 
that were heard earlier. We need to probably redesign our food 
system so that we are actually producing what it is that we 
need to produce, rather than producing what we are producing 
and push it down the chain.
    I think we need to really understand better what are the 
needs of the consumer, what are the global needs of the food 
system, so that we can come back and really redesign the whole 
thing. If we did that, I think prices will be a lot better off 
for our farmers and our ranchers.
    A quick example about sorghum, which is so important in 
Kansas. If we were to figure out ways to create products that 
consumers want, that are sorghum-based, I think we will be 
doing a big favor to our farmers back home. Similar things we 
can do across the board, throughout the food system.
    The other part that has to do with waste is how do we 
really take the raw material, how we handle the raw material, 
how it gets to the consumer, because in this country, most of 
that loss happens at the very end of that chain. It happens at 
restaurants. It happens at grocery stores. It happens at 
consumers' houses. A lot of it has to do with how we label the 
food. A lot of it has to do with policies that we have in 
place. But it also has to do with the technology and the 
science we have behind that very complex system, which we have 
not really paid much attention to in recent decades.
    So I would say that there are a lot of things that we need 
to do to reduce waste in this country, and to really stabilize 
the system, make it more robust, so that the producer wins, the 
manufacturer wins, the citizen, the consumer wins, as well.
    To look at a little broader aspects, however, most of the 
loss that happens worldwide, it actually happens between the 
farm and the plate, not at the very end, like it happens in 
this country and in developed countries. So the developing 
world still needs help with really figuring out how to protect 
the food supply very early on in that chain.
    If we did that, I think we will also gain because of that, 
we being the American farmer and the American consumer as well, 
because it is a global system.
    There are also other things that I believe will contribute 
to the complexity of the system, and that has to do with 
diseases for plants, diseases for animals, and the safety and 
security of our food supply globally, that if we were to really 
do a better job of designing the system, we will actually do a 
better job of having a safer, more secure food supply overall.
    Chairman Roberts. I appreciate that very much. I am 
reminded of the--one of the first calls I got from the 
Secretary, Secretary Perdue, was to be with him at Leesburg. We 
were trying to get at the problem of wasting one-third of the 
food that is served in our school lunch program, and the angst 
that we have on the regulatory side with school nutritionists. 
The decision was made by the Secretary to issue proclamations. 
Quite frankly, I did not know that he could do it to that 
extent, but I am happy to learn that. I have a whole list of 
proclamations that I wish he would issue.
    But there were three, and it was to provide one percent 
milk to mix with chocolate and/or strawberry so the kids would 
actually drink it, or would want to drink it, and then there 
was the whole grains issue, and then there was the salt issue. 
I just talked to a nutritionist, I think it was yesterday. I 
asked her, ``Did this make a difference?'' She said, ``Oh, yes, 
especially keeping that salt situation right where it is.''
    So there are things that you can try to mandate, from the 
United States Government, that simply do not work given the 
circumstances, and still have something that is certainly 
nutritious.
    I have been advised that the third vote just started, and 
so, let us see if I can get to the conclusion here.
    I am sorry for the disruption we have had, and virtually 
every member of this Committee has been running back and forth 
between their other committee assignments and voting.
    So this will conclude our hearing today. As we heard during 
this Committee's recent hearing addressing the state of the 
agriculture economy there are macroeconomic forces that have 
created these current difficult times for American farmers and 
ranchers. Research is an integral tool that can help combat 
these larger trends. Research that results in better 
efficiencies and productivity becomes a significant risk 
management tool against weather, pests, and disease.
    Thank you to each of our witnesses on both panels for 
taking the time to share your view on agricultural research. 
The testimonies provided today are valuable for the Committee 
to hear first-hand and also be on the record. For those in the 
audience who want to provide additional thoughts on the farm 
bill, we have set up an e-mail address on the Senate Ag 
Committee's website, to collect your input. Please go to 
ag.senate.gov and click on the farm bill Hearing box on the 
left-hand side of the screen. That link will be open for five 
business days following today's hearing.
    To my fellow members, I would ask any additional questions 
you may have for the record be submitted to the Committee Clerk 
five business days from today, or by 5:00 p.m. next Thursday, 
June 22nd.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:03 p.m., the committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             JUNE 15, 2017
      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             JUNE 15, 2017
      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



      
=======================================================================


                         QUESTIONS AND ANSWERS

                             JUNE 15, 2017
      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
